<html>
<title> - REVIEWING THE PROGRESS OF THE PARTNERSHIP BETWEEN THE UNITED STATES PARALYMPICS AND THE U.S. DEPARTMENT OF VETERANS AFFAIRS TO PROMOTE ADAPTIVE SPORTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
               REVIEWING THE PROGRESS OF THE PARTNERSHIP 
                 BETWEEN THE UNITED STATES PARALYMPICS 
                  AND THE U.S. DEPARTMENT OF VETERANS 
                   AFFAIRS TO PROMOTE ADAPTIVE SPORTS 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2011

                               __________

                           Serial No. 112-28

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

71-380 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
JEFF DENHAM, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

















                            C O N T E N T S

                               __________

                            October 5, 2011

                                                                   Page
Partnership Between the United States Paralympics and the U.S. 
  Department of Veterans Affairs to Promote Adaptive Sports......     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    38
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared statement of Congressman Braley.....................    38

                               WITNESSES

U.S. Department of Veterans Affairs, Christopher Nowak, Director, 
  Office of National Veterans Sports Programs and Special Events.    28
    Prepared statement of Mr. Nowak..............................    58

                                 ______

Disabled Sports USA, Kirk M. Bauer, J.D., USA (Ret.), Executive 
  Director.......................................................     9
    Prepared statement of Mr. Bauer..............................    48
Iowa Sports Foundation, Ames, IA, Michael Charles Boone, 
  Director, Adaptive Sports Iowa.................................     6
    Prepared statement of Mr. Boone..............................    42
Paralyzed Veterans of America, Carl Blake, National Legislative 
  Director.......................................................    12
    Prepared statement of Mr. Blake..............................    52
Turnstone Center for Children and Adults with Disabilities, Ft. 
  Wayne, IN, Tina Acosta, MS, TR, Director, Adult Day Services 
  and Adaptive Sports and Recreation and Secretary, Indiana 
  Association of Adult Day Services..............................     7
    Prepared statement of Ms. Acosta.............................    45
U.S. Association of Blind Athletes, Colonel Richard G. Cardillo, 
  Jr., USA, (Ret.), Military Sport Program Coordinator...........     4
    Prepared statement of Colonel Cardillo.......................    39
U.S. Olympic Committee, Charles Huebner, Chief of U.S. 
  Paralympics....................................................    25
    Prepared statement of Mr. Huebner............................    56


                     PARTNERSHIP BETWEEN THE UNITED
                       STATES PARALYMPICS AND THE
                      U.S. DEPARTMENT OF VETERANS
                   AFFAIRS TO PROMOTE ADAPTIVE SPORTS

                              ----------                              


                       WEDNESDAY, OCTOBER 5, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 340, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Braley, and Walz.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning and welcome everyone to the 
Subcommittee on Economic Opportunity.
    This Committee's first responsibility to our veterans is to 
enable those injured in military service and to have the 
broadest opportunity to rehabilitate themselves, and that is 
what today's oversight hearing is all about. So I appreciate 
everyone being here and looking forward to the testimony this 
morning.
    While I was not a Member of the 110th Congress, one of the 
legislative bright spots was the provision in Public Law 110-
389 that established the U.S. Department of Veterans Affairs 
(VA)-U.S. Paralympics Adaptive Sports Program, an initiative to 
expand the use of sports as part of a veterans rehabilitation 
programs.
    To do that, the law authorizes $8 million per year to fund 
veteran adaptive sports programs from the local level through 
elite levels of competition. The law limits use of the funds to 
disabled veterans and servicemembers and includes a provision 
to pay a per diem to those selected to participate in high-
level adaptive sports competitions.
    There was a good reason to direct VA to partner with U.S. 
Paralympics, and that was to use the cache of the Olympic brand 
and the ability to attract local and national organizations.
    Just as important, we saw how the Olympic brand would 
attract disabled veterans to adaptive sports.
    Given what we will hear today, that strategy has worked 
very well. It appears that thousands more disabled veterans are 
now involved in adaptive sports and at the elite levels, as 
well in our national Paralympic and adaptive sports teams that 
now include many more disabled veterans. It seems the program 
is also fostering further cooperation between adaptive sports 
clubs and programs at the local and at the national level.
    While the Paralympics has yet to draw the viewership like 
the Olympics, I believe the next steps would be to expand media 
coverage, and I would ask Mr. Huebner to include their media 
plans in his remarks this morning.
    In short, I believe the VA-U.S.Paralympics program is the 
right thing at the right time and that is why I have introduced 
H.R. 2345, which extends this program through 2018. And I am 
very happy that we were able to favorably report H.R. 2345 to 
the full Committee back in July, and I look forward to its 
consideration at the full Committee.
    Before I recognize the Ranking Member, I believe it is 
important to mention the role of recreational therapy as part 
of rehabilitation.
    When staff visited a Midwestern VA medical center and asked 
the director about the hospital's recreation therapy program, 
the reply was, ``we don't have Bingo here.'' I find that myopic 
view of a well-documented rehabilitation resource incredible 
and I intend to speak with Chairwoman Buerkle about taking a 
look at VA's national recreational therapy program or lack of a 
program. If nothing else, it should be a major source of 
participants for the VA-Paralympic program.
    So at this time, I would like to recognize the 
distinguished Ranking Member, Mr. Braley, for his opening 
remarks.
    [The prepared statement of Mr. Stutzman appears on p. 38.]

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Thank you, Mr. Chairman.
    Since the beginning of time, competition has been in our 
DNA and it has always been a part of the warrior ethos, and the 
great thing about this Paralympics program is that it allows 
individuals who have served their country with honor and 
distinction and who have suffered wounds that have changed 
their outlook on their own lives the opportunity to continue to 
compete and inspire others with their performance, and that is 
why I am so glad to be here with you today holding this 
important hearing.
    Since the early years in our country, Congress has had to 
reassess programs created to care for our men and women in 
uniform, our veterans who have courageously answered the call 
to duty, and their families who have shared in that military 
experience. Congress stands united in support of our members of 
the Armed Forces and veterans who deserve the best resources we 
can mustard to help them succeed in life after they complete 
their military service.
    Paralympics sports have been used as a method of adaptive 
sports therapy since World War II when my father served.
    Paralympics continue to provide rehabilitation services to 
our disabled servicemembers who continue to use them 
successfully and these services have proven to be popular.
    And I might add, Mr. Chairman, my brother, Brian Braley, 
works at the VA Hospital in Des Moines, Iowa, as a 
kinesiotherapist working with veterans to help them get back on 
a path toward achieving their full level of functioning, and 
that is why I am so proud to be a part of this Committee.
    Today's hearing will give the Subcommittee the opportunity 
to hear from the U.S. Olympic Committee (USOC), how the 
Paralympics program was first authorized, as the Chairman did 
on October 10th of 2008, and how it has assisted our members of 
the service and veterans to heal from the wounds of war.
    We know that the price of war is not paid for by money 
alone. Servicemembers that are called upon to serve on behalf 
of our country pay in many ways and they often pay the ultimate 
price. This is especially true for those who have made the 
sacrifice of life and injury sustained while in service, and I 
am very proud to welcome Mike Boone, the Director of Adaptive 
Sports Iowa who is here to testify today.
    In March, his organization hosted a forum that brought 
people together interested in increasing opportunities for 
persons with physical and visual disabilities to be active in 
daily physical activity programs.
    And I am also happy to welcome Clarence Hudson who is the 
Executive Director of Iowa Sports Foundation, who I just met 
and am very honored to have with us today.
    Although I was unable to attend this forum, my staff was 
there and has provided great feedback on the work Adaptive 
Sports Iowa is doing and how positively it impacts physically 
disabled athletes.
    I also had the opportunity recently to meet with Andy Yohe 
from Bendorf, Iowa, who is a member of Team USA sled hockey 
team and in 2006 helped his team win a bronze medal at the 
Paralympics Winter Games in Torino, Italy. Then he helped the 
U.S. capture gold at the 2010 Paralympics Winter Games in 
Vancouver, Canada. Ironically he was accompanied at that 
meeting by U.S. Olympic gymnast and fellow Iowan, Shawn 
Johnson, who has been a tremendous advocate on behalf of the 
Paralympics. Shawn earned a gold medal and three silver medals 
at the 2008 Olympic Games in Beijing.
    Many of my colleagues agree that the Department of Veterans 
Affairs provides world-class care to our injured servicemembers 
and veterans. Knowing this, I would like to hear about the VA 
and USOC Memorandum of Understanding (MOU) and its 
implementation. I am very interested to see if there have been 
any issues of concern in the partnership process, and I would 
also like to hear about program outreach to veterans and other 
veterans organizations that could help coordinate important 
events such as the National Veterans Wheelchair Games.
    As always, I look forward to working with you and your 
staff, Mr. Chairman, to ensure that this program continues to 
be successful in its mission to provide rehabilitative sports 
therapy to our injured servicemembers and our veterans.
    And I will yield back.
    [The prepared statement of Congressman Braley appears on p. 
38.]
    Mr. Stutzman. Thank you, Ranking Member Braley, and I now 
call up our first panel.
    Our first panel is composed of Colonel Richard Cardillo, 
Jr, from the U.S. Army, retired from the United States 
Association of Blind Veterans, Mr. Michael Boone from Adaptive 
Sports in Iowa. Welcome. Ms. Tina Acosta from the Turnstone 
Center for Children and Adults with Disabilities in Ft. Wayne, 
Indiana. Mr. Kirk Bauer from Disabled Sports USA, and finally 
Mr. Carl Blake from Paralyzed Veterans of America (PVA).
    I want to extend a special welcome to Ms. Acosta from Ft. 
Wayne, Indiana. We had the chance to meet last night, and some 
of the stories that she shared with us are quite inspiring and 
the work that they are doing is very encouraging, and I know 
that the work that she is doing in Ft. Wayne in my district is 
something to be very proud of. So welcome and thank you for 
coming.
    The story she also is going to share with us, I hope, about 
a veteran from Indiana is also a wonderful story I think the 
Committee will appreciate.
    So Colonel Cardillo, I think we will start with you. If you 
would like to go ahead and share your testimony, then we will 
go to Mr. Boone and down the line from there.

 STATEMENTS OF COLONEL RICHARD G. CARDILLO, JR., USA, (RET.), 
 MILITARY SPORT PROGRAM COORDINATOR, U.S. ASSOCIATION OF BLIND 
  ATHLETES; MICHAEL CHARLES BOONE, DIRECTOR, ADAPTIVE SPORTS 
 IOWA, IOWA SPORTS FOUNDATION, AMES, IA; TINA ACOSTA, MS, TR, 
     DIRECTOR, ADULT DAY SERVICES AND ADAPTIVE SPORTS AND 
   RECREATION, TURNSTONE CENTER FOR CHILDREN AND ADULTS WITH 
DISABILITIES, FT. WAYNE, IN, AND SECRETARY, INDIANA ASSOCIATION 
    OF ADULT DAY SERVICES; KIRK M. BAUER, J.D., USA (RET.), 
   EXECUTIVE DIRECTOR, DISABLED SPORTS USA; AND CARL BLAKE, 
  NATIONAL LEGISLATIVE DIRECTOR, PARALYZED VETERANS OF AMERICA

   STATEMENT OF COLONEL RICHARD G. CARDILLO, JR., USA, (RET.)

    Colonel Cardillo. Great. Good morning, Mr. Braley, Mr. 
Stutzman, other Members of the panel.
    The United States Association of Blind Athletes (USABA) is 
a Colorado-based nonprofit organization that has provided life-
enriching sports opportunities for children, youth, and adults 
who are blind and visually impaired for the past 35 years.
    Through our partnership with the United States Olympic 
Committee, USABA has strengthened the collective effort to 
enhance the lives of disabled veterans and disabled members of 
the Armed Forces who are blind and visually impaired in order 
to enhance their rehabilitation process through sport, physical 
activity, and recreation, and most importantly to assist them 
in the reintegration back into their home communities.
    I would like to thank you for this opportunity to present 
our views on the partnership and progress between the USOC 
Paralympics Division and the Department of Veterans Affairs in 
promoting adaptive sports for our Nation's veterans.
    This morning I would like to explain what this initiative 
has meant to USABA, and more importantly, to highlight some of 
the accomplishments and the impact this has had over the past 3 
years.
    First off, we have grown our mission vision programming 
efforts from a start of 19 veterans back in 2008 to over 300 
veterans today, and those same veterans are living at home and 
training in local community-based fitness centers around the 
United States.
    Many of these veterans have recognized the health benefits 
that physical activity has on improving their daily lives, and 
a select few of those veterans have been able to take their 
level of physical activity and skills to a higher level through 
the U.S. Paralympic Emerging Athlete Program in hopes of making 
the U.S. Paralympic National Team.
    For example, Chester Triplett, United States Army, a 
veteran out of Mooresville, North Carolina, recently 
participated at the U.S. Track National Championships in tandem 
cycling for the first time. He began cycling less than 2 years 
ago. Well, he won the 200 meter sprint and he placed second in 
the kilo, and more importantly he qualified to attend the World 
Track Nationals in Los Angeles in February. So he is probably 
one of our more elite athletes at the other end of the 
spectrum.
    Through our Military Sport Program we work directly with 
the VA staff at 9 of the existing 13 Blind Rehabilitation 
Centers in an effort to enhance the rehabilitation programs at 
those centers by assisting them in connecting with local 
community-based programs, and in some cases, Paralympic sport 
clubs.
    Some examples are the Southeastern Blind Rehab Center in 
Birmingham, Alabama, has a very close relationship with the 
Lakeshore Foundation; another nonprofit organization, also a 
Paralympic sport club, and they take veterans on a weekly basis 
predominately to improve their strength and physical fitness.
    The Western Blind Rehab Center in Palo Alto, California, 
has a tremendous weekly relationship with a local tandem 
cycling club and they take their veterans out cycling once a 
week, perhaps even twice a week in some cases, and they are 
also in the developmental stages of partnering with the Riekes 
Center for Human Enhancement; another local community-based 
organization, which also happens to be another Paralympic sport 
club.
    And finally, at the American Lakes Rehab Center in Tacoma, 
Washington, they have a golfing program with a local golfing 
organization, and they are working to expand their program with 
the Tacoma Parks and Recreation and a local rowing program.
    We have worked closely with the Department of Veterans 
Affairs over the past 2 years on immersing select Veteran 
Affairs blind rehabilitation center staff into our summer 
sports program in a train-the-trainer program; the adaptive 
sports programming knowledge that these individuals gain is 
easily transferable back into their own recreational and 
rehabilitation efforts.
    We continuously expand existing programming efforts to 
include greater veteran participation at our summer and winter 
sports programs and other developmental and learn to race 
cycling camps.
    We encourage and assist veteran participation at community-
based programming being offered around the United States.
    And I see my time is slowly running out so I will quickly 
jump to our recommendations. We have three. And those three 
involve working with the Department of Veterans Affairs and the 
Vision Center of Excellence.
    Our first recommendation is to ease the identification and 
sharing of contact information so that we can better assist 
these veterans as they become known to learn more about the 
programming efforts and the rehabilitation efforts around the 
United States.
    Secondly, we would like to re-establish the funding stream 
from the VA to allow for the continuation of support and 
services to the Blind Rehabilitation Centers.
    And our third recommendation, we would like to see an 
expansion of the current on-going programming efforts to 
include the spouse and family member integration into those 
rehabilitation programs.
    For the past 53 years, I have known all too well the 
importance that the military family plays and the impact that 
it has on the servicemember, and we believe that the inclusion 
of those individuals in that rehabilitation program effort is 
important to the rehabilitation of that veteran.
    I truly would just like to say thank you for giving us the 
opportunity to present our thoughts, and if I had more time, 
and I can wait till the end, there is a letter attached as 
Exhibit A from one of our recent program participates that very 
clearly articulates the impact that the program had on his 
life, and I believe that I can speak for the rest of the 
veterans that it has on their lives as well.
    [The prepared statement of Colonel Cardillo appears on p. 
39.]
    Mr. Stutzman. Thank you. And feel free to share more 
comments during the questions that we have.
    Colonel Cardillo. Okay.
    Mr. Stutzman. So we definitely want to hear what you have 
to say. So Colonel----
    Colonel Cardillo. Great.
    Mr. Stutzman [continuing]. Thank you.
    Mr. Boone, you are recognized.

               STATEMENT OF MICHAEL CHARLES BOONE

    Mr. Boone. Chairman Stutzman, Ranking Member Braley, and 
Members of the Subcommittee, I appreciate and am humbled to 
appear before you today to discuss the partnership between the 
U.S. Paralympics and the Department of Veterans Affairs.
    I personally have never had the honor to serve within the 
military. As a citizen of this country, I cannot express enough 
the gratitude I have for the sacrifice the honorable men and 
women of our Armed Forces make.
    As a professional in the adaptive sports industry, I 
realized that I can have an impact on the lives of those who 
have come home with a physical disability. The opportunities I 
can provide will have a positive effect on the quality of life 
for both the injured members and their families.
    Prior to 2010, the State of Iowa lacked the infrastructure 
to support a development of a sustainable statewide sports and 
recreation program for the physically disabled. The Iowa Sports 
Foundation or the ISF recognized this need. We had the 
leadership to make the difference within the State of Iowa and 
to serve as a catalyst for change.
    Adaptive Sports Iowa or ASI is our answer to Iowa's need. 
Officially kicking off in March 2011, ASI was established with 
the mission of creating, organizing, and promoting sport and 
recreation programs for Iowa's physically disabled population.
    The Adaptive Sports Iowa Summit, which Congressman Braley 
was just referring to, officially kicked off in March of 2011. 
As a part of the Summit, we were honored to host Charlie 
Hubener, Chief of U.S. Paralympics. Mr. Hubener came to observe 
and present ASI with an Olympic Opportunity Grant from the U.S. 
Paralympics and the Department of Veterans Affairs. That grant 
allowed for us to purchase new equipment and to begin a program 
that would target physically disabled veterans in the State of 
Iowa.
    With the promise of that grant money, we launched Operation 
ASI, a program specifically intended for Iowa's physically 
disabled veterans.
    To assist in the planning, we formed a committee to oversee 
it. The Committee was comprised of representatives from the 
Iowa National Guard, the Central Iowa VA Health Care System, 
Paralyzed Veterans of America-Iowa Chapter, and myself.
    We held our first event on July 9, 2011, which was set up 
as an expo to introduce veterans to a variety of different 
activities.
    The partnership between the U.S. Paralympics and the VA is 
an important and successful collaboration with great potential. 
Nationally, there are organizations that provide adaptive 
sports and recreation programming in their respective 
communities and regions. The overwhelming majority of these 
organizations work independently from each other with limited 
collaboration.
    U.S. Paralympics is in the unique position to provide the 
leadership to these organizations to assist in the development 
of a nationwide grass roots support system.
    There is an area of improvement I suggest the Subcommittee 
examine to improve this partnership.
    Efficiently disseminate information regarding our programs 
to disabled veterans has been a significant stumbling block for 
our organization. When a disabled soldier returns home from 
rehab, there is currently no effective way for us to inform 
them of our programming opportunities. And an easy and 
immediate improvement to this partnership is to establish a way 
for soldiers that would benefit from our services to be 
informed prior to their separation from the military.
    In closing, I would like to thank the Committee for your 
support of adaptive sports programming for disabled veterans.
    I grew up in a household with a blind father. While he was 
not a veteran, I saw firsthand how opportunities like the ones 
that we are providing can drastically change lives. What you 
are doing matters a great deal and will have a positive impact 
for program participants, their families, friends, and 
communities for a long time to come.
    Thank you.
    [The prepared statement of Mr. Boone appears on p. 42.]
    Mr. Stutzman. Thank you.
    Ms. Acosta, you are recognized for your testimony.

                STATEMENT OF TINA ACOSTA, MS, TR

    Ms. Acosta. Chairman Stutzman, Ranking Member, Braley, and 
Members of Subcommittee, I would like to thank you for inviting 
me to come here and speak. It is an honor to be here to 
represent Turnstone and Ft. Wayne.
    I would like to say that Turnstone has been a Paralympic 
sport club since 2009, and through our partnership it has 
provided a lot of resources, referrals, and experts, and it has 
really helped us to increase the quality and the size of our 
program.
    In 1995, Turnstone addressed the lack of sports, 
recreation, and wellness activities by developing the region's 
only adaptive sports program. In 16 years, Turnstone's program 
has grown to become a Paralympic sport club, which today serves 
over 500 people with physical disabilities, but hundreds more, 
including our veterans and members of the Armed Forces, could 
be served if programs were available.
    Turnstone has been providing services to the community 
since 1943, and last year we provided services to over 2,200 
people. We provide a full range of services from birth through 
a person's lifetime, including licensed daycare, physical 
occupational and speech therapy, adult day services, a wellness 
center, and our adaptive sports program.
    While we have served many people with physical 
disabilities, it became aware to us that we were not serving 
our veteran population.
    While at a conference with the Paralympics Sports 
Association in April, I became aware of a program that was 
piloted in Chicago, it was called Healthy Minds, Healthy 
Bodies. The gal that presented the session talked about a 
veteran who had been suffering from post-traumatic stress 
disorder (PTSD) and had literally lived his life in his 
basement for 5 years, and she credited the success of this 
program for helping to bring this gentleman back to life. And I 
felt like that that was a perfect program for us to apply for 
one of these Olympic opportunity grants.
    We have a perfect set up here in Ft. Wayne. We have an 
accessible fitness and wellness center, we have trained staff 
that with work with veterans with physical disabilities.
    The components of our program include inviting 25 veterans 
with physical disabilities and one family member to a free 
membership to our fitness center. It would also include monthly 
social events for any veteran with a physical disability, and 
at that time we would provide a speaker on health and wellness 
topics, we would introduce them to our adaptive sports program, 
and provide a meal, as well as networking and fellowship among 
the veterans.
    Part of the grant also includes hiring a vet, contracting 
with a veteran who can help us get out there and be a liaison 
between the veterans and our organization.
    We will also establish an advisory committee, and that 
advisory committee will evaluate the success of our program, 
but also the needs of our veterans and how we can partner with 
other community agencies to meet their needs.
    I would like to talk a little bit about this gentleman, his 
name is Tim, and before we even applied for the grant he came 
to our facility, and I feel like he is a great example of how 
we can serve others.
    Shortly after I returned in April, there was an article in 
the paper, this gentleman, Tim, he is 25 years old, he attends 
the Indiana University (IU) Purdue extension campus in Ft. 
Wayne and he did a project called Operation Thank You.
    From there we offered him a free membership to our fitness 
center. He attended all summer, he came three times a week, and 
he started to see a lot of weight coming off. He told us that 
while he was rehabbing and after he went back to civilian life, 
there was just a real loss of activity and he had a huge weight 
gain. So he started coming. He has also been joining the 
fitness center at the campus and he has also been able to 
compete in some athletic events.
    Just last month he participated in a 4 mile run where 9,500 
people from the area competed in a 13 or a 6-K or a 4 mile run.
    This is Tyler who he helped get through the race. Tim has 
been a great role model. He always has a positive attitude and 
he really wants to give back to the community for everything 
that has been given to him this summer.
    This is another picture of him, this was taken in Chicago 
at the Valor Midwest Games. This was an opportunity for Tim to 
participate with 150 other veterans with disabilities in a 
variety of sports track and field events. It was a great 
opportunity for this young man to see the kinds of 
opportunities that there are out there for him in the world of 
sports and recreation.
    And this is Tim today. He still continues to attend school. 
He is also a member of our adult wheelchair basketball team. He 
has a lot of goals he wants to accomplish. He has also been 
selected as a committee person to serve on the campus committee 
to explore the possibility of intramural and collegiate 
adaptive sports at the college level.
    And I would just like to say that I would echo with what 
has been said today that we would like to open those doors 
between the VA and the community partnerships so that we can 
work together so that when these veterans are returning to the 
community, that the opportunities that they deserve are there 
for them.
    Thank you.
    [The prepared statement of Ms. Acosta appears on p. 45.]
    Mr. Stutzman. Thank you. And if I remember right, yesterday 
you said that Tim was living at his parent's house for how 
long?
    Ms. Acosta. I am sorry, what was the question?
    Mr. Stutzman. Tim was living at his parent's house, is that 
right, in the basement?
    Ms. Acosta. No, that was the gentleman in Chicago. Tim is 
living on campus at the University.
    Mr. Stutzman. Okay, all right, I was confusing the two. All 
right, thank you.
    Mr. Bauer, you are recognized for your testimony.

          STATEMENT OF KIRK M. BAUER, J.D., USA (RET.)

    Mr. Bauer. Thank you. My name is Kirk Bauer, I am a 
Director at Disabled Sports USA. The organization was started 
in 1967 by disabled Vietnam veterans. I got involved in 1969 
when I got hit by a grenade during an ambush in Vietnam, and so 
I have been involved with this sports program for over 41 
years, and I want to say that the Paralympics sport program in 
partnership with the VA is the most successful program we have 
ever seen and we are certainly honored to be part of it. We 
think it has opened up opportunities for veterans both at the 
recreational level, healthy lifestyles, as well as at the 
Paralympic level.
    I think it is significant to note that the very first medal 
won at the Vancouver Paralympics in 2010 was also the very 
first medal ever won by the U.S. in Paralympic sport of 
biathlon, and it was won by a wounded warrior, Andy Soule, and 
I think that is a testament to the success of the Paralympic 
program and the work that they are doing and that we are trying 
to help them do to show that these veterans can excel in sport 
as well as excel in life.
    So I certainly want to thank all of you for this 
opportunity and for the program that has been created.
    I also want to touch on a few comments that were made by 
Congressman Braley. Even though this program is both to enhance 
lifestyles and to create physical activities so the disabled 
veterans can lead healthier lives, it also has a competition 
component, and we see that competition component not just for 
Paralympic sport, these young men and women are very 
competitive, and if one other veteran does something like jump 
a mogul or hit a wake on a wake board the next veteran says, 
okay, I have to do that now, and this natural competition 
really does speed up the progress that they make in sports and 
in rehab. And so that element of competition exists everywhere 
across the board and it is really very, very healthy, so thank 
you for your comments.
    And I would also like to say that you touched on, you know, 
the recognition of rec therapy and what it really means. It 
means, you know, climbing mountains.
    I was privileged to take two double leg amputees last year 
up Kilimanjaro, the highest mountain in Africa, and the three 
of us had literally one good leg between us, that was mine, 
thank God it was mine, and we made it to the top, and that is 
because of opportunities that were provided through programs 
like the VA, so thank you very much.
    I am going to touch, just sort of briefly go over our 
testimony, but again, I want to make one recommendation which 
is to raise the awareness level with the rec departments in the 
various VAs. Right now, we are working with about 30 VAs that 
are very proactive, but just last week, we ran into a situation 
on the west coast where we talked to a VA rec person whose 
comment was, well, we have to treat all nonprofits equally. We 
can't, you know, give favor to one nonprofit over another when 
we are promoting programs. And I had to remind this person that 
Disabled Sports USA, along with Paralyzed Veterans of America, 
Disabled American Veterans who play sports is actually named in 
the legislation and is a partner with the VA and this is a VA 
program, and that person evidently was not aware of that.
    So this kind of awareness really needs to get there so our 
job is easier in reaching out to the disabled veterans and 
providing the services that we know they deserve.
    This program, the Paralympic sport program, has enabled 
Disabled Sports USA. We have been providing sports programs at 
the hospitals since 2003, when they declared the war in Iraq, 
but we have been able to double our service when the program 
was established through the VA.
    This year we just got a count of over 1,100 severely 
wounded being served this year in over 125 different sports 
teaching events in 32 States involving 20 different sports.
    So these are not just Paralympic sports, they are all 
sports that they can get involved in year round.
    And we are now working with 30 VAs, recruiting disabled 
veterans for the programs, and 17 wounded warrior units like 
Fort Belvoir, Fort Campbell in Tennessee, and others around the 
country, the Pendleton and Lejeune Marine Warrior Transition 
Units. And all of this has been possible because of this 
funding, and so we do want to stress how important it has been 
in our outreach and service to the disabled veterans and the 
wounded warriors.
    We have been able to leverage this money to raise $3 in 
private-sector funding for every dollar that has been provided 
through the Paralympics, and that has enabled us to expand 
services beyond what the role is within the Paralympic sport 
program.
    We now have sponsored four elite international competitions 
here in the U.S. having to do with ski racing. That has been 
funded by private-sector funding, but it is also a supplement 
to the competition program so that they can become better and 
better prepared to be Paralypians in the 2014 Paralympic Games.
    We have been able to fund training camps. We have been able 
to hold activities in is summertime. A range of activities in 
is summertime both on the competitive level as well as the 
recreational level.
    We have been able to support a national hand cycling series 
that involves disabled veterans that cannot walk but are able 
to hand cycle so they have those opportunities, and all of this 
again has been parlayed, it has been leveraged so that we can 
work more effectively with these young men and women.
    And this program has created such excitement that Disabled 
Sports USA has 104 chapters, 39 of them have already become 
Paralympic sport clubs helping to promote the brand, helping to 
promote the message, and we expect many more chapters to come 
on board as a result of this program.
    So this is involving communities across the country.
    And the next step that has occurred because of this program 
is that, you know, not only teaching events are held, but also 
ongoing events so that the veteran can be involved on a 
continuous basis. We have continuous programs going on in 
California, in Washington, in New Hampshire, in Vermont, in 
Virginia, in Maryland, in Colorado, and other places, and this 
is giving them ongoing opportunities to lead healthy and fit 
lives.
    I have some examples again of some of the veterans that 
have benefitted from the program. One is a policeman now in 
Pleasanton, skis regularly, hand cycles regularly, and again is 
back at work.
    Another gentleman was a demolition expert, he literally was 
blown up in Iraq. If you saw the movie Hurt Locker he was the 
hurt locker, and the blast was so severe, it wasn't the heat 
from the blast but the actual power of the blast that literally 
ripped off the skin from his legs and he had to have multiple 
skin grafts. He just last month got a job offer from one of our 
corporate sponsors, AON, to work in their security department, 
and again, he was so excited about that opportunity, but this 
is again a full round of getting back into life and getting 
back into work.
    Another is working for Boeing and is also a certified ski 
instructor, teaching other disabled veterans how to ski, and 
you know, using that sport as a form of rehabilitation.
    I think the list could go on. We had one wife write to us 
and say thank you for giving me my husband back. She said he 
had been depressed, he had lost the light in his eyes, and when 
we got involved in the sports program, he suddenly came alive 
again. And so this is literally changing lives and changing the 
lives of families as well.
    So these are just some of the examples of what has happened 
with this program. We envision greater things as the program 
continues.
    I do want to stress that the need is greater than ever. We 
have been seeing at the hospitals, particularly at Bethesda, an 
influx. I have never, in my 41 years, have never seen so many 
multiple limb amputees ever. Single, double, triple amputees, 
there is actually a couple of quadruple amputees now, and I 
tried to get a meeting with Chuck Scovill, Colonel Scovill, the 
head of amputee care at Bethesda on Friday and his aid said 
forget it, he is in an all day meeting.
    Three weeks after Bethesda reopened their beds are totally 
full, and this is after they have shifted a third of the 
patients from Walter Reed over to Belvoir, which has a great 
facility by the way, and they don't know what to do with the 
influx of multiple amputees that are coming through. They are 
full right now and this was not anticipated.
    So we expect that this need and these young men and women 
will need these support services in the future and we ask for 
your continued support on their behalf.
    So thank you very much for the opportunity to testify, and 
thank you.
    [The prepared statement of Mr. Bauer appears on p. 48.]
    Mr. Stutzman. Thank you. And you know amazing stories and I 
am sure you could share a lot of them, and the mental toughness 
that they have is also unbelievable.
    Mr. Bauer. I am sorry.
    Mr. Stutzman. The mental toughness that these men and women 
as they start training and performing is incredible.
    Mr. Bauer. Yes, absolutely.
    Mr. Stutzman. Mr. Blake, you are recognized for your 
testimony.

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Chairman Stutzman, Ranking Member Braley, 
Members of the Subcommittee, on behalf of Paralyzed Veterans of 
America, I would like to thank you for the opportunity to 
testify today on the partnership between the Department of 
Veterans Affairs and the United States Olympic Committee 
Paralympics.
    Perhaps no veterans service organization (VSO) understands 
the importance of sports as a rehabilitation tool more than 
PVA. Since its inception in 1946, PVA has recognized the 
important role that sports and recreation play in the spinal 
cord injury rehabilitation process. It is for this reason that 
PVA developed and annually administers a comprehensive sports 
and recreation program for its members and all veterans with 
disabilities.
    PVA was pleased to support the provisions of Public Law 
110-389. PVA has been fortunate to benefit directly from the 
expansion of activities under the USOC-Paralympics partnership 
with VA.
    PVA was a grant recipient of one of the first round of 
grants provided by the USOC. In December 2010, PVA received a 
grant of $400,000 from the USOC for the Paralympics Integrated 
Adaptive Sports Program. This funding was intended to cover 
program support activities through June 2011 when the next 
round of grants was originally anticipated to be disbursed.
    With the financial support of the Paralympics, PVA was able 
to provide sports and recreation opportunities to 805 unique 
disabled veterans. Ultimately, 4,261 participation 
opportunities were made available to disabled veterans. These 
are individual events for individual unique veterans.
    PVA allocated the grant funding to the PVA Hand cycling 
Program, the National Veterans Wheelchair Games, our National 
Trapshoot Circuit, and a PVA/American Wheelchair Bowling 
Association (AWBA) Bowling Tournament series.
    We believe that much progress and enhanced cooperation has 
resulted from the Paralympics program and its partnership with 
VA.
    Under this program, PVA has witnessed improved coordination 
between our organization, the USOC-Paralympics, and other 
veterans' and community-based organizations that has enhanced 
existing programs and advanced development of new programs in 
communities that previously had not been served.
    In the past, we offered several recommendations that we 
believed would expand veteran participation in programs 
administered by the VA and the Paralympics program. While we 
believe that the Paralympics program has helped alleviate some 
of those concerns, our principal recommendation to remove 
barriers to participation remains the same.
    Our concern is that newly injured veterans should be 
provided timely access to education and training regarding 
sports and recreation opportunities, much like that was already 
mentioned here. We believe that the VA and DoD should continue 
to improve coordination of outreach efforts between legitimate 
organizations promoting sports and recreation opportunities and 
newly injured veterans.
    With regard to the USOC-Paralympics program specifically, 
we are pleased to see that the USOC has recently provided an 
open accounting of how it has administered all of its funds; 
however, we believe the USOC-Paralympics should implement a 
review committee that consists of leaders from the adapted 
sports and recreation community who administer programs for 
disabled veterans to also participate in the disbursement of 
funding for these programs.
    Finally, we have some concern about the timeliness and 
efficiency of funding the USOC-Paralympics program.
    In order for the organization to disburse funding to grant 
recipients, the USOC-Paralympics program must receive Federal 
funding in a timely manner. We understand that VA has been slow 
to provide the necessary funding authorized by the original 
legislation. The ability of the USOC-Paralympics to plan and 
administer the grants it provides is hindered by the inability 
of Congress to complete work on the appropriations process.
    As we understand it, funding for this grant program is 
directed through the Office of Public and Intergovernmental 
Affairs. In other words, until the Fiscal Year 2012 VA 
Appropriations Bill is finally completed, funding for this 
program will be placed on hold.
    Moreover, we must emphasize that the importance of this 
program should preclude it from having its funding reduced as a 
part of deficit reduction discussions.
    We look forward to working with this Subcommittee to ensure 
that a wide range of sports and recreation activities are 
available to the men and women who have served and sacrificed.
    This concludes my statement, I would be happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Blake appears on p. 52.]
    Mr. Stutzman. Thank you very much, and thank you to all of 
you on the panel, and would also just mention right now I want 
to recognize Mr. Bauer and also Colonel Cardillo for your 
service to our country and thank you for your willingness to 
serve.
    I will start with just anyone on the panel. Just a simple 
question. Do you have any suggestions on how to improve the 
Paralympic grant process? And anybody can feel free to answer 
that.
    Mr. Bauer. Well, again we would reiterate the need for 
timeliness. I know that sometimes their funding is held up 
because of, you know, either bureaucracies or the uncertainty 
of the funding from the Committee.
    But the timeliness. We are already, for instance, moving 
forward for winter programs. We have to schedule these programs 
months and advance. Our first program will be in December, 
December 4th through the 11th, in Colorado. It will be a full 
week of everything to do with winter sports. There is going to 
be sled hockey training, there is going to be Nordic biathlon, 
snow boarding, alpine skiing. There is going to be race 
training, and all that had to be put into place and yet we are 
still uncertain about the funding because of the process.
    So I would certainly reiterate what Blake said that, you 
know, we just need some certainty so we can move forward.
    Mr. Blake. I would like to say as a credit to the 
Paralympics, they have already begun outlining their plan for 
disbursing funding through various grants. Unfortunately, they 
are just held up by not having the actual money in hand to 
divvy it up once it comes online.
    Mr. Bauer. And I will support that statement very much.
    Mr. Boone. The organizations that are here in front of you 
today obviously other than myself, they are large national 
organizations. More often than not, though the people that are 
out there doing the actual work, the local adaptive sports 
programs, a lot of times, they are independent organizations, 
and unfortunate to be hooked up to a larger nonprofit. The Iowa 
sports Foundation, a lot of times, they are independently 
operated. And one thing we recognize is just the nature of the 
beast is adaptive sports usually the numbers are low and the 
cost is very high for the programming for equipment and 
everything else.
    So when grant money is committed, it is a big financial 
burden for these small organizations to commit the funds and do 
the programs not knowing when exactly the money is going to 
arrive.
    Mr. Stutzman. Okay. And then kind of to follow up with you, 
Mr. Boone and Ms. Acosta, if you would chip in on this one as 
well. How did you initially find out about the VA Paralympic 
adaptive program sports--the sports grant program and what was 
your impressions of the program and the process?
    Ms. Acosta. I found out about the program at the Paralympic 
Leadership Conference in April, and we were very excited 
because we have a 3.8 million annual operating budget and 60 
percent of that is raised locally and we felt like this would 
be a great resource for us to utilize to get our veterans 
involved, so we were very excited about it and hearing about 
it.
    There was a time delay in getting the application to us, 
and like everyone has said, you know, we are now kind of--we 
are going to be running forward very quickly to do what we need 
to be within the next year.
    Mr. Boone. Adaptive Sports Iowa found out through 
Paralympics. I was looking up to really create a good 
relationship between me and Charlie Huebner just because he was 
so interested with the success that our program was having 
locally, very quickly and we were made aware of it.
    And what was the second part of that question?
    Mr. Stutzman. Just how did you find out about the program.
    Mr. Boone. Okay, yeah. It was through USA Paralympics and 
the conversations I had with Charlie Huebner.
    Mr. Stutzman. Okay. And then again to all the panel and 
feel free to anyone to answer this, but how would you track 
successes of the grant program and the grant that you had 
received measuring success how?
    Mr. Bauer. Again, Kirk Bauer, Disabled Sports USA. We are 
actually conducting surveys. This last summer we have a return 
of about 100 surveys and we are shooting for about 300 to 400 
surveys returned, and getting paperwork from these guys and 
gals is not always the easiest thing in the world. And 
basically, we are tracking their assessment on their outlook on 
life, as well as their fitness levels, as well as their 
continuing activity.
    That is really the crux of this whole program is you want 
to introduce them and teach them skills, but then you want to 
see that they continue to use those skills to lead a healthy 
lifestyle.
    So we are actually in the process of doing those surveys 
now and they are very positive so far. The preliminary results 
are very, very, very positive.
    Mr. Stutzman. Good.
    Colonel Cardillo. We all have metrics that we use towards 
determining a program's success, but the reality of the issue 
is if you get one soldier or one veteran to come to a program 
that has never been prior to his injury, that is success. And 
if it is only one person, then the next time it is two, and 
then the next time it is three.
    And I think that is where we have seen the growth in our 
programming effort. The fact that somebody will show up, 
realize hey, I can do this and then go back home, share that 
information with other veterans, other friends, and the next 
time we promote something we get more applications.
    And so, it is truly by them coming, participating, and 
recognizing that I can do this and I don't want to sit at home 
anymore, I want to get out and I want to be active.
    Mr. Stutzman. So do you find if they show up one time, they 
usually show up again?
    Colonel Cardillo. Yes, to be honest with you. And it is 
both fortunate and unfortunate. It is fortunate because they 
are excited about what they are doing, but we only have so many 
slots, if you will, at these programs, and we really want to 
expand the programming to allow other veterans that haven't had 
the opportunity to come to these programs.
    So yes, we have had repeat veterans come. But I have also 
had to tell guys hey look, I am going to put you on my wait 
list because I want to bring other guys in to expose them and 
give them that same opportunity to experience success.
    Mr. Stutzman. Okay.
    Ms. Acosta. I think for the success for our program would 
be measured by obviously their attendance to the program. You 
know, we are looking at people coming into a fitness center, 
and we will be doing interviews with them, pre and post 
surveys. But I think another measurement of success would be 
the number of contacts we make in the community, the resources 
that can lead those veterans to our organization, which we feel 
we are lacking right now.
    Mr. Stutzman. Okay.
    Mr. Bauer. I want to add. Again, I want to stress the fact 
that once, you know, we are about teaching skills, and once the 
skill is learned whether a person learns how to kayak or 
bicycle or ski or rock climb or scuba dive, once that skill is 
learned, that wounded warrior, that disabled veteran can do 
that activity anywhere, and that is again why we are asking in 
the surveys are they continuing the activity. It doesn't 
necessarily need a structured program once they learn the 
skills. If they want to get into competition that is a 
different matter. They need the training, they need the 
coaches, what have you, and so you are providing opportunities 
for us to teach skills so that they can use those skills any 
place in the country.
    Mr. Blake. I would just sort of piggyback back on what 
Colonel Cardillo said, I think quantifying success for 
something like this is very difficult.
    I mean, I think up front we measure success by the number 
of new unique veterans that we serve and the number of new 
opportunities that are created. But much like Colonel 
Cardillo's point about serving a single new veteran, you only 
have to go to the Wheelchair Games once, and to meet someone 
who has never been and participated in their first wheelchair 
games and just the joy and their attitude and how it changes is 
enough to convince you that that is success.
    You know, the interesting thing about this is success is 
beyond just becoming an athlete or becoming involved in 
recreational activities again, this translates into other 
things in life. Confidence becomes the opportunity to maybe go 
find a job when I might not have otherwise considered it 
because I have a serious disability. It is getting employed, it 
is becoming an active member of my community again.
    So quantifying it is certainly a difficult proposition, but 
if we serve one veteran with a new opportunity that is success 
to us. Granted one is not enough.
    Mr. Stutzman. Sure.
    Colonel Cardillo. If you don't mind, I think now is 
probably an appropriate time to read that exhibit that I 
referenced earlier from a veteran who attended one of our 
programs for the first time. He is totally blind. His injury 
was to a gunshot wound after he left the service. Still a 
veteran, still visually impaired, and he came to our most 
recent winter program. And I think this letter would describe 
what success is in a number of different ways.
    Mr. Stutzman. Okay, Mr. Walz, do you have any objection to 
him going ahead and doing that now? Okay. All right, go ahead.
    Colonel Cardillo. This gentleman, his name is Lonnie 
Bedwell, United States Navy from the State of Indiana and he 
attended our winter sport program back in March.
    I want to start this letter by thanking everyone involved 
with putting this program together. As you will soon tell, I am 
not very good with words so please forgive me as it is truly 
heartfelt.
    When I sit back and reflect on this past weekend, I am so 
humbled and grateful. I had the opportunity to meet a little 7 
year-old visually impaired girl who is completely full of life. 
I am in awe of someone that never had the blessings in life to 
see as many years as I did.
    I also met a man who sacrificed so much in combat and spent 
months in hospitals and has had 58 surgeries to piece him back 
together. Even after all of these surgeries, he is still not 
whole, not to mention all of the others I was so fortunate to 
meet.
    You can never walk in another man's shoes, but you can gain 
knowledge as well as draw strength and inspiration from their 
life's experience.
    Whether you realize it or not, you have made a major impact 
on so many lives, and here are a few things you have done for 
those of us who have had the opportunity to participate in this 
program.
    We have developed new friendships that in some cases, I am 
sure will last for years.
    Walls that were solid, you not only placed a door in them, 
you also opened it for us.
    You have provided us with a new sense of hope and drive.
    Thoughts like the following once again go through my mind. 
I really can do this. I wonder how much better at this I can 
get? And just what else I really can do. In my mind, aren't 
these wonderful thoughts.
    With regards to my family, here are some of the things you 
have done for them. You place tears of joy in my mother's eyes. 
My father told me I am proud of you, son, and at the age of 45 
this almost brings tears to my eyes.
    As for the rest of my family, it also provides them with 
joy and a new sense of strength.
    In my community, you have put me on a platform to help 
others as you have helped me. What a humbling honor this is.
    In just a few short weeks of people finding out I was 
heading to Colorado and 2 days of being back, the following has 
happened. Almost a countless number of people have called my 
house or approached me to talk. A mother came up to me crying 
and thanking me. She said, you don't know how much of a 
difference you make in my daughter's life as she watches and 
listens to you. A couple said, you make us realize how little 
we have to complain about. And a gentleman talked with me for 
30 minutes about the whole event in a local restaurant. That I 
know of, I had never spoken to any of these people before, and 
this doesn't include the others I don't know and those that I 
do.
    For those who put this program together, took care of us at 
the lodge, guided us on the slopes, and financially supported 
this, I want to thank you once again.
    So you see you have not only touched the lives of those of 
us privileged enough to participate in this event, you have 
touched the lives of literally hundreds of others. I just hope 
that I can represent all of your efforts and support in a 
manner that will also make your proud.
    Signed Lonnie Bedwell, United States Navy. Thank you.
    Mr. Stutzman. Thank you. Yeah, thank you for sharing that.
    I recognize Congressman Braley for his questions.
    Mr. Braley. Well, Colonel Cardillo, I don't know how you 
could listen to that letter and not be moved by it. I also want 
to make sure that, I know this was just an oversight, we want 
to thank you, Mr. Blake, for your service and sacrifice to our 
country, but I think that letter you just read really captures 
what these programs are all about.
    And Mr. Blake, you made a very important point, and that is 
how you measure the success of these programs often ignores 
some of the real realities of success.
    We know that one of the biggest drivers of health care 
costs in the country are chronic disease treatments and we know 
that we pay an enormous amount for chronic disease care that is 
directly related to obesity and all of its attended physical 
and mental problems.
    So when you provide a disabled person the opportunity to be 
physically active and involved and engaged and give them the 
resources to be active, we are saving ourselves millions and 
billions of dollars of future long-term health care costs.
    So that is why when you look at these programs and the 
small investments we are making in them, I think it is 
important for us to think long term about the net impact on 
U.S. taxpayers by failing to make these important investments.
    I have had the privilege of working with a lot of disabled 
people in my life and addressing their needs, and Mr. Bauer, 
your statement about the number of multiple amputees that we 
are seeing in our districts, and your comment, Colonel 
Cardillo, about how this impacts their lives and what it means 
to the people they come into contact with, all of us see these 
wounded warriors missing limbs in the United States Capitol as 
we go into vote brought there by one of the Capitol tour guides 
to give them a sense of the government that should be standing 
behind them.
    And I think all of us have had that experience knowing how 
contentious things are in this town of wondering why we ever 
complain about the minute things in our lives that give us 
problems.
    So one of the best things that ever happened to me, Mr. 
Bauer, was my good friend in Waterloo, Iowa, Dennis Clark, who 
has a prosthetics and orthotics company and provided me with an 
orthotic device when I tore my Achilles tendon, started the 
prosthetic rehab unit here at Walter Reed, and for 2 years, 
flew back and forth on his own dime to turn it into a world-
class rehab facility.
    And Dennis took me through there and we got to see some of 
the people who benefit from this program in the beginning and 
end stages of their rehab. And if you can't be inspired by 
those wounded warriors and what they go through, I don't think 
you have any feelings.
    Dennis told me the story of one of the first people they 
took care of who was an amputee who was a very competitive 
skier and wanted to get back on the slopes and they fitted him 
with a special device on his stubbies so he could go out on 
that slope at Walter Reed and try it out.
    And he said they were there and he kept pushing this 
veteran to get him started down the hill and he kept falling 
down and falling down and falling down. And he looked up and 
there were people on the walkway pounding on the windows 
thinking he was abusing this wounded warrior, and it was the 
drive and the competitive nature inside of that young man that 
kept dragging him back up that hill until he was able to use 
those skis. And that is why these programs are so important.
    So one of the things that kept coming up in your testimony, 
Mr. Bauer, was this whole idea of creating awareness. Awareness 
of the programs and making sure not just that the wounded 
warriors who participate, but the broader public knows they 
exist and how they benefit all of us, not just those competing.
    So I would like to hear from those of you on the panel what 
we can be doing to address that issue.
    Mr. Bauer. That is a tough question, I would probably 
rather have somebody else answer it, but let me tell you what 
we are trying to do, okay, as a starter.
    When we work with a local community group, a Disabled 
Sports USA chapter we have agreements with, 63 of them now that 
are helping us with this program, they agree to promote the 
program, promote, you know, the benefits of physical activity 
and promote the Paralympics so that their communities in States 
across the country hear about the programs.
    We help them to do media releases about the activities they 
are doing to get local media coverage, interviews with wounded 
warriors that get the message across in their own communities, 
and that is what we are trying to do at the local level so that 
people can hear more and more about the programs.
    We also are conducting, you know, sort of larger events 
that help to promote the abilities of the wounded warriors.
    One example was just in Portland, Oregon. The Hood to Coast 
Race is 197-mile relay race from the top of Mt. Hood to the 
coast of Oregon and there are 1,200 teams of 12-person teams so 
there is 14000, 15,000 doing this. We had the only wounded 
warrior team in that 12-person team of traumatic brain injury 
(TBI), amputee, visual impairment and we got a lot of media 
attention about that, again promoting their abilities, but 
promoting the fact that they can do these things, and those are 
the things we are trying to do.
    It is a tough nut to crack, promoting the Paralympics. I 
know that the U.S. Olympic Committee has tried diligently to 
get the message out and they do it all the time, but getting 
through all the media clutter is sometimes very difficult and 
we are going to have to just keep on working at that.
    If I could just give one more little story to substantiate 
what you just said. I was up with a group of wounded warriors 
doing a 100-mile bicycle ride and one of them had gotten up 
with me at 4:30 in the morning to try to finish the whole ride 
in one day with a hand cycle, and it is over three mountain 
passes. He made it over two of them and he didn't make it over 
the last one, he just didn't have anything left in him, and 
this is his first time trying.
    Now you would have thought he was discouraged, but he was 
excited, and he said, you know what, I am coming back next year 
and I am going to beat that last hill.
    And that is the kind of attitude we love to see, that is 
what these sports programs do. They ignite these guys and 
motivate them to be better next time. And we just think it is a 
wonderful program.
    Mr. Braley. Mr. Boone, you had also raised this in your 
testimony so there is no effective way to inform them prior to 
separation, this is one of the common concerns we have when 
people are being separated from service and especially with the 
extensive reliance on our National Guard and Reserve units. 
They are getting bombarded with information when they are being 
sent back home and a lot of times they just want to get home, 
be back with their families, and it is later on in the process 
when they are thinking about their rehabilitation or what is 
available that they need that information and it is often not 
available to them.
    So what has been your experience in dealing with that?
    Mr. Boone. Well, as you know, Iowa is a very--it is kind of 
a unique environment in that there is no major military 
installations, there is no major military hospitals other than 
the VA Central Iowa Health Care System and the Iowa National 
Guard.
    So, the struggle that we have had is trying to find, I 
guess, newly disabled veterans. The average age I would say of 
the disabled veteran population in Iowa is probably 70-plus 
years old. So, really trying to find that group that would 
really benefit most, you know, from the programs that we are 
offering has been difficult. And I don't know if I can give you 
a good example of a success that we have had in that department 
just because it is extremely difficult to get our word out.
    And on top, is the fact that because we are such a new 
program too, you know, there is no real way for us to really 
get to them.
    You know, what I am suggesting is there should be some way, 
and this can be applied across the country. But there should be 
some way for veterans that are about to be released, I mean 
just a single piece of paper saying what adaptive sports 
programs there are, where are they at, and how you contact them 
and that you don't need to do anything beyond that. Because 
right now for us to find out who is being released, who is 
coming home, it is just that that information is just not 
available.
    Mr. Braley. Colonel.
    Colonel Cardillo. This touches at my first recommendation 
that I offered up and that is the identification and sharing of 
information about who these athletes or who these veterans are.
    I am a little bit familiar with Health Insurance 
Portability and Accounting Act (HIPAA) but I am not a subject 
matter expert. When I first started working with the U.S. 
Association of Blind Athletes I said to myself, well, where are 
they, who are they, you know, what is our target audience?
    And so I have learned some things. Perhaps the biggest way 
to get at this is through what is called a business associate 
relationship between the VA and selected organizations, 
certainly not everybody. Maybe it could be written for 
everybody, I don't know, that allows the sharing of information 
of a name and an address of somebody that has a physical 
disability or a visual impairment and let us help the VA or the 
U.S. Department of Defense (DoD). If we are still talking about 
active-duty servicemembers, give us that information and let us 
help you rehabilitate them.
    Because right now it is word of mouth or finding needles in 
haystacks in locating these individuals.
    Mr. Braley. Thank you.
    Mr. Blake. I think from PVA's perspective we have sort of a 
unique opportunity that makes it easier for us to talk about 
these programs that are available because we have a captured 
population that comes through the spinal chordinjury (SCI) 
service of the VA and we begin informing them about all their 
different opportunities while they are in the midst of rehab.
    The National Veterans Wheelchair Games has also proven to 
be an important outreach opportunity because it is a national-
level event that attracts veterans of all eras, including 
Operation Iraqi Freedom/Operation Enduring Freedom (OIF/OEF) 
veterans, and then I mentioned in my testimony the number of 
new participants as well, and once they find out about these 
opportunities they just sort of move on their own.
    I think the real challenge in this is not unlike we have 
talked about in health care and all these other issues with the 
VA in particular ingetting the word out to individuals who are 
not necessarily coming through a facility like Walter Reed or 
Brooke or other major military treatment facilities or VA 
facilities around the country. You know, you end up with 
disabled servicemembers at their home posts that might not ever 
find out about these programs and so they are still challenged 
there.
    You know, we have talked about for years the problems with 
transition assistance for the disabled in particular and this 
is an opportunity that falls by the wayside along with the many 
other things that go on with the disabled transition 
assistance.
    So your concern is not lost, and it is a matter of getting 
the VA and DoD and all of the partners that are here engaged 
together to get the word out.
    Mr. Bauer. Thank you.
    Mr. Stutzman. Okay, Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman and Ranking Member. 
I want to thank you both for your passion on this for bringing 
this hearing together, and I say every year that we gather to 
talk about this program. I can't help but leave much more 
optimistic, much more encouraged to where things are at.
    I want to thank all of our panelists and everyone here for 
the incredible work you do. I think it has been hit on, the 
multiple returns not just to the warriors who earned every bit 
of our support, but the return to our society that this does 
and a sense of what we can accomplish together. It has such a 
strong appeal, a public/private partnership doing all the right 
things, the success stories.
    I am truly impressed with my colleagues asking, and the 
answers you gave, about measuring effectiveness with 
symmetrics, and I think we know there are intangibles here that 
are going to be very difficult to measure. But reading the 
letter or seeing the face of some of our athletes is enough and 
those around it that it inspires us.
    So my only regret today is that our fellow Americans 
couldn't see how this was done. They see a Congress working 
together with the private sector for all the right reasons with 
effective outcomes. That is a very encouraging thing and I 
think we could use more of it.
    So I can't tell you how supportive I have been and how 
impressed I have been from everyone involved from the 
Paralympic Committee, and we are going to hear from them, and 
VA to all of you.
    I was just going to end, and I think maybe you got on a 
little bit Carl, at the end, I was going to ask the line of 
questioning that went there, always comes back to ways we can 
get efficiencies between DoD, VA, and the private sector.
    Are we introducing sports and rehabilitative services? 
Because I am looking at this as we are talking rehabilitation 
in general to folks who may not be able to go one and do a 
century ride or something but who may gain through the Vision 
Centers of Excellence, the ability to ride with their children 
through the park, whatever that may be. Are we introducing 
these things early enough? And I think maybe you hit on it, 
Carl, that there is the problem that it is hit or miss. You are 
in a little better position because of that, maybe Blinded 
Veterans of America is in a little better position with Tom and 
his people. But what do you think, are we getting to everybody 
who might benefit? And not just current veterans. I think there 
are some from previous conflicts that could certainly benefit.
    Mr. Blake. I think the short answer to that question is 
probably no.
    From our perspective, like I said, we introduce our 
programs very early on when we have new members. Most new 
injuries that would be members of our organizations are brought 
into the spinal cord injury service at the VA and we have that 
unique opportunity where we are plugged in and can make them 
aware of all of their opportunities almost from the get go.
    We found that not related to sports activities, but when it 
comes to employment with our vocational rehabilitation program, 
much the same principal applies. We begin informing them about 
their opportunities very early in the rehabilitation process 
because it helps establish their goals in a lighter spectrum 
going forward. But that is a unique perspective because of the 
SCI service.
    I think when you look out on a broader scale I would say 
that you can never introduce this type of opportunity early 
enough, and I would suggest it is probably not early enough, 
particularly when you look at even from something like the 
Wheelchair Games. We get a lot of new participants every year 
and the shocking part of that is the number of new participants 
that are Vietnam-era veterans who are, you know, 40-plus years 
removed from service just finding out about this kind of stuff, 
and it makes you wonder why didn't they know about this a long 
time ago and why not about these other programs that are out 
there?
    Mr. Walz. And Mr. Bauer, I mean the reason I ask it is we 
are starting to kind of--we are working on some stuff to 
redefine rehabilitation not just to a functional level and let 
them go, but to continue to go on. We are in the process of 
doing that right now.
    I am interested how this would go into that general 
rehabilitation and quality of life increase.
    Mr. Bauer. And I would like to offer a little slightly 
nuance answer to your question about reaching them.
    In looking at it at three or four different levels. First 
of all you have the main hospitals, Walter Reed Bethesda now, 
Brooke Army Medical Center, in San Antonio, National Naval 
Medical Center in San Diego. Those three major facilities are 
taking a lot of the severely wounded, okay, not those who have 
slightly less wounds, they are being covered by facilities like 
Fort Belvoir and other facilities. Those three facilities are 
very attune to recreation and sports. Paralympics is there all 
the time, Disabled Sports USA is there all the time, and they 
are getting introduced at the earliest possible stage to sports 
and recreation activities as part of their rehab. It is a very 
effective tool. The therapists love it because they can say to 
somebody, you know, if you want to go on this hiking trip or 
you want to get certified in scuba, you have to go through the 
therapy in order to be cleared for this. So it really, you 
know, motivates them to do the therapy.
    We have a golf program. We set up a thing, if you go to all 
8 weeks of the learning sessions you get a free set of Ping 
clubs. Well, I tell you attendance doubled, you know, after 
that announcement was made. So that is why the therapists love 
it.
    At certain VA hospitals they are very proactive. We are 
working with 30, I would say a good portion of them are 
proactive. But you know, there are 170 something facilities in 
the VA system, so we think that there could be more proactivity 
in that end of things and that is where things are falling 
through. Where are your transition units?
    Paralympics is working with these guys all the time, so are 
we. Those units, some of them again are very proactive. The 
Camp Lejeune Marine Wounded Warrior Barracks, they started 
years ago with sports. We were down there back in 2004. 
Pendleton same thing. But then some others are not quite as 
proactive about physical activity, and that is where it is more 
difficult to identify and get them on board in terms of, you 
know, recruiting warriors from that.
    But I will say at the military medical centers that I 
mention, they are very proactive about recreation.
    Mr. Walz. Okay. Colonel.
    Colonel Cardillo. I have a unique situation, or our 
association has a unique opportunity, to help influence the 
rehabilitation of those servicemembers right up front, and that 
is through our relationship with the VA Blind Rehabilitation 
Centers (BRC)s.
    We are actually funded to help go to those centers and see 
what we can do as an organization to enhance their 
rehabilitation programs through sports or physical activity and 
recreation. When we started, we were only working with three or 
four of the Blind Rehabilitative Centers, and then over the 
last 2 years we have expanded that to 9 of the existing 13. 
They just fielded three hospitals the past couple of months and 
I haven't been to those yet.
    But what we try and do is we will go in there and take a 
look at their programs through sports and physical activity and 
see what they would like to do to enhance it or what we can do 
to help enhance that program.
    Their clientele is average age 65, but the young guys go 
there because the active-duty health care system doesn't have a 
Blind Rehabilitation Center for visually impaired soldiers, so 
those guys get sent to the VA centers.
    So if they come and there is a rehab program in place, then 
we think we have kind of opened that first door for them 
through sports and physical activity, and if they decide to 
take it to the next level or increase their physical skills, 
then we help them guide through those other wickets, if you 
will.
    From the blind and visually impaired, I think we have a 
good relationship right now with the VA at the Blind Rehab 
Centers to help enhance their programming efforts.
    Mr. Walz. Well, I certainly appreciate all this.
    I would ask you all just as a yes or no, I hate to put you 
on the spot like this. When I go back home and my constituents 
expect me to make decisions about spending or whatever, is this 
a good $10 million spent?
    Colonel Cardillo. Yes.
    Mr. Blake. Yes.
    Mr. Bauer. Yes.
    Mr. Walz. Absolutely. We will carry that message home with 
us. Thank you.
    Mr. Stutzman. Thank you very much, and I want to thank the 
panel, and especially to Mr. Boone and Ms. Acosta for traveling 
from Iowa and from Indiana respectively. And I apologize, Mr. 
Blake, for missing your service, thank you as well.
    And I will excuse you all and thank you again, this has 
been very informative and appreciate all of you and what you 
are doing as well.
    So at this time we will call up the second panel to come 
forward. Okay, welcome.
    I want to introduce Mr. Charles Huebner from the U.S. 
Olympic Committee, thank you for being here. And also Mr. 
Christopher Nowak, from the U.S. Department of Veterans 
Affairs.
    Thank you to both of you and we will go ahead and take your 
testimony, Mr. Huebner, if you would like to again, I will 
recognize you.

STATEMENTS OF CHARLES HUEBNER, CHIEF OF U.S. PARALYMPICS, U.S. 
 OLYMPIC COMMITTEE; AND CHRISTOPHER NOWAK, DIRECTOR, OFFICE OF 
   NATIONAL VETERANS SPORTS PROGRAM AND SPECIAL EVENTS, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF CHARLES HUEBNER

    Mr. Huebner. Excellent, thank you so much. Good morning 
Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee. I want to thank you for the opportunity to 
testify on progress of the Department of Veteran Affairs, U.S. 
Olympic Committee, and U.S. Paralympics partnership.
    On a personal note I have a veteran in the room, Lieutenant 
Heidi Grimm-Powell. It is her birthday, I would just like to 
say happy birthday to her.
    By way of a brief background, the USOC is an organization 
chartered by Congress and one of only four National Olympic 
Committees that mange both the Olympic and Paralympic Program, 
and we are very proud of that.
    We are also only one of only a handful of National Olympic 
Committees that are 100-percent privately funded. Most people 
don't know that. Our major competitors are out funding us often 
as much as five to one.
    Paralympic programs are sports for physically disabled 
athletes. The Paralympic movement began shortly after World War 
II utilizing sport as a form of rehabilitation for injured 
military personnel returning from combat.
    In 2012 the Paralympic Games returned to Great Britain 
where with significant involvement from U.S. and United Kingdom 
veterans, the movement was founded.
    Injured military personnel and veterans are really the soul 
of the Paralympic movement. And when I speak of the Paralympic 
movement, I am not just talking about the few athletes that are 
elite that go to the games, but I am talking about the 
programming in the U.S. led by the USOC and our partners 
Paralyzed Veterans of America, Disabled Sports USA, USA 
Shooting, to name a few, that allow veterans with physical 
disabilities an opportunity to re-engage in life by simply 
skiing with their buddies or playing in the backyard with their 
kids.
    As programming expands daily, we see a population that has 
lower secondary medical conditions, higher self-esteem, lower 
stress levels, and higher achievement levels in education and 
employment. Research proves that.
    More importantly, we see a population that inspires all 
Americans to pursue excellence in sports and in life.
    A few years ago, this Committee with incredible vision and 
leadership, Congressional leaders and veteran and military 
organizations asked the USOC to lead this effort. Due to our 
powerful and inspiring brand, our expertise in physical 
activity and sports for persons with disabilities and our 
significant infrastructure of member organizations such as the 
National Recreation of Parks Association, YMCA, and USA Hockey, 
organizations that have a footprint in just about every U.S. 
community, which allows for incredible financial and 
programmatic efficiencies.
    We accepted the responsibility and opportunity to serve 
those that have served us, and because of your leadership in 
developing and providing funding for this USOC and VA 
partnership, we are here today to report the following outcomes 
in the past year.
    The VA and USOC have distributed more than 70 grants and 
provided ongoing training and technical assistance with an 
emphasis on engaging veterans at the community level in 
physical activity.
    An interesting point about that and I think it goes to the 
efficiency that you talked about a little bit in the past 
panel, these grant organizations are contributing more than $40 
million in private resources and programmatic support of their 
own resources against this initiative. It is pretty incredible.
    Each of those grant recipients has a contract with the 
USOC, has goals outlined in their contract with outcomes, so it 
is performance and outcome based, and they are auditable, so we 
are very, very, very pleased with the ability to make sure that 
the money is being spent in an impactful way.
    More than 200 Paralympics sport clubs or community sport 
organizations are currently providing programs for veterans or 
servicemembers, so above the 70 grantees I just talked about, 
there are another 130 organizations based on the USOC, our 
partners in the VA, asking them to make veterans an initiative 
in their communities that have taken on this task with their 
own private resources.
    More than 800 community sport military and veteran leaders 
have been provided training, technical assistance, and ongoing 
program support to develop or expand existing programs for 
veterans.
    In the first panel, you heard the Turnstone Program talk 
about the Paralympic Leadership Conference, which is a joint 
initiative between the VA and the U.S. Olympic Committee where 
we are training people on how to go implement programming in 
their community to serve veterans.
    More than 14,000 veterans with disabilities participated in 
programs and activities since the programs inception, and 
currently 85 veterans are receiving a benefit based on their 
ability to be an a national team or pursue the Paralympic 
Games.
    Thanks to the leadership of this Committee, Secretary 
Shinseki, Executive Director Billicous, VA Director of National 
Veteran Sports and Events, Chris Nowak, and VA staff member, 
Matt Bristol, we have completed the planning phases for 2011 
beyond with an emphasis on expanded services, greater 
efficiencies, and significant impact on those that we owe so 
much.
    And I would just like to recognize the fact that all of 
those individuals I mentioned are veterans.
    Moving forward, and this is based on the feedback of our 
constituents, many who were on the first panel as well as the 
VA, and I would argue that was probably the biggest challenge 
in our first year of this program is having that engaging 
planning process with VA leadership and VA staff.
    Our goal is this, to provide $7.5 million in grants, 
training, and programmatic support, and improve the grant 
process, which I believe we have already addressed in our 
planning over the last 6 months.
    Post the quarterly reports and grant recipients online and 
make all of our information available and transparent to all 
the participants as well as the general public. It is currently 
posted on the USOC Web site.
    Implement the inaugural VA-USOC Paralympic Adaptive Sport 
Training Conference with more than 50 VA therapeutic rec 
coordinators participating in February 2012 at the U.S. Olympic 
Training Center. That I believe, and that was a recommendation 
from Mr. Nowak, will assist us in expanding awareness and 
knowledge of the collaborative opportunities with VA 
therapeutic rec coordinators and opportunities available in 
their communities. A significant opportunity for us, and again, 
recommended by the VA.
    Reducing the year one programmatic staff and reinvesting 
those resources in programming. Based on our assessments we can 
reduce our programmatic staff right now from 17 to 10 and a 
half people and be efficient and effective and utilize those 
resources to reinvest back in the programs.
    And then the only challenge is pursuing additional 
resources. We see a great need for focused regional 
coordinators. An example of that is in Chicago where we have a 
full-time staff person working with a collaborative agency 
there. They are coordinating 25 different organizations to work 
together and focus on developing programs for veterans and we 
feel that is a great need that will allow greater impact.
    In closing, I would just like to highlight one program that 
aligns all of our strategies, collaboration, training, 
technical assistance, awareness, and financial support, along 
with an emphasis on hiring veterans.
    Joe Brown was from Arizona. His family has a strong 
military history. His grandfather died as a prisoner of war 
during the Korean War. His father was an Air Force fighter 
pilot. Joe played football at the Ohio State University, I 
won't hold that against him, and 3 years in the National 
Football League. But the Army Rangers were continually a 
calling, so he joined the Army, the Rangers and deployed to 
Iraq in 2004 and again in 2007.
    During his 2007 tour, he was calling in air strikes atop a 
three-story building trying to help a unit in trouble. As his 
unit was leaving the building, Brown fell down a 30-foot shaft 
suffering a severe brain injury.
    Brown knew the firsthand importance of physical activity in 
the rehabilitation process. He attended the USOC-VA Paralympic 
Leadership Conference to gain valuable training and expertise, 
as well as develop relationships to focus on collaboration. He 
pursued a position in the parks and recreation industry near a 
military facility so he could serve injured servicemembers and 
veterans.
    He was hired by Harker Heights Parks and Recreation outside 
of Ft. Hood, Texas. Harker Heights was awarded a $23,000 USOC-
VA grant in 2010.
    Today, more than 80 veterans are participating consistently 
in an array of physical activity programs led by Joe, and an 
additional 200 wounded warriors are participating in 
programming.
    Harker Heights hired a hero. I would like to recognize U.S. 
Army Veteran, Joe Brown, who is with us today.
    [Applause.]
    And again, I would like to thank the Committee, VA 
leadership, and organizational partners with us today for 
entrusting the VA and USOC in a partnership that is so critical 
to supporting our Nation's finest.
    Thank you.
    [The prepared statement of Mr. Huebner appears on p. 56.]
    Mr. Stutzman. Thank you. And Mr. Brown we obviously want to 
recognize you and appreciate your service, and what an amazing 
story and one of the real heroes in our country and I 
appreciate you being here today as well.
    So, Mr. Nowak, you are recognized.

                 STATEMENT OF CHRISTOPHER NOWAK

    Mr. Nowak. Thank you. Good morning Chairman Stutzman, 
Ranking Member Braley, and Members of the Subcommittee. I am 
Chris Nowak, Director of the Office of National Veterans Sports 
Programs and Special Events, Department of Veterans Affairs.
    I am honored to be here today to share the success of the 
partnership between the VA and the USOC.
    I am also a disabled Marine veteran, and I believe my 
personal participation in adaptive sports as part of my 
rehabilitation provides me with a unique perspective in this 
very important VA program.
    Adaptive sports can be an integral part of a veterans 
rehabilitation from traumatic injury, illness or disease.
    My office is committed to providing veterans with the 
opportunity to engage in adaptive sports as part of their 
comprehensive rehabilitative program based on clinical 
outcomes.
    Our partnership with the USOC allows us to provide adaptive 
sporting opportunities year-round in the veterans community 
where they live.
    Public Law 110-389 authorized the formation of the Office 
of National Veterans Sports Programs and Special Events, which 
is to be headed by a Director who reports to the Secretary, 
Deputy Secretary, or an appropriate official within the 
Veterans Benefits Administration (VBA).
    When I joined the team as its first director in February 
2011 the office managed all VA Paralympic-related programs to 
include grants, allowances, outreach, and reported to the 
secretary as necessary.
    On September 22, 2011, the VA's existing office of National 
Programs and Special Events was merged with the National VA 
Rehabilitation Special Events, was consolidated into one 
office, Office of the National Veterans Sports Programs and 
Special Events.
    This consolidation permits more efficient utilization of 
personnel and increased capacity and flexibility to support VA 
adaptive sports and art therapy programs at the community and 
national level.
    I now oversee VA's Paralympic programs as well as the six 
rehabilitation special events. I report to the Secretary of 
Veterans Affairs.
    The Office of National Veterans Sports Programs and Special 
Events is currently staffed by 19 full-time employees. These 
staff not only coordinate VA's partnership with the USOC to 
include the grant awards and oversight, monthly allowance to 
assist veterans and related outreach, but to also plan and 
manage the six VA National Rehabilitation Special Events.
    Additionally, the office coordinates VA's commemorative 
event activities, such as the National Veterans Day Observance, 
and manages VA's participation in the National Memorial Day 
observance.
    The Veterans' Benefits Improvement Act also authorized VA 
to seek sponsorships and donations from the private sector to 
defray the cost of carrying out the integrated adaptive sports 
program.
    As Director, my focus has been to ensure proper use of VA 
grant funding, enact the monthly allowance, and develop 
outreach materials.
    I have also taken steps to establish sponsorship as an 
objective for 2012. These steps include, establishing a Deputy 
Director within the office with the capacity to develop 
clinical support for adaptive sports programs. This will allow 
us to validate the clinical benefits of adaptive sports as a 
form of rehabilitation.
    Developing promotional materials that will aid in 
recruitment of eligible veterans as well as potential sponsors. 
These materials include adaptive sports brochures, posters, 
fact sheets, outreach tool kits, Web-based, and Web sites.
    In fiscal year 2010, VA entered into a MOU with the USOC to 
provide Paralympic sport programming and additional community 
support, including funding resources to injured servicemembers 
and veterans across the country.
    VA subsequently awarded $7.5 million to the USOC for the 
integrated adaptive sports program.
    VA also published regulation, provided developed forms, and 
established process for awarding the monthly allowances as 
authorized by the public law.
    Moving forward in 2012, I expect to see greater 
coordination with the VA as we consolidate the National 
Rehabilitation Special Events and Paralympic programs, while 
continuing to develop our relationship with the USOC.
    The overreaching objective is to provide disabled veterans 
with adaptive sporting opportunities year-round and to ensure 
these opportunities are consistent with the appropriate 
clinical guidelines to aid in their rehabilitation.
    While the VA continues to improve its current National 
Rehabilitation Special Events program, VA is continuing to look 
at new ways to enhance the rehabilitation experiences of our 
veterans. We are meeting the challenges head on and constantly 
exploring ways to strengthen our partnership with the USOC.
    This concludes my statement, and will answer questions, 
sir.
    [The prepared statement of Mr. Nowak appears on p. 58.]
    Mr. Stutzman. Okay. Thank you to both of you.
    I would like to start questions with Mr. Huebner. You 
mentioned the need to establish regional directors. Could you 
expound on that a little bit and what your thoughts are 
regarding that?
    Mr. Huebner. And everything we are doing I just want to 
emphasize is based on our learnings, based on input from many 
of the organizations that you heard from earlier and what we 
are seeing happening in the field.
    One of the unique roles we play, and we are very humbled by 
it, we understand we have a very powerful brand, and when you 
go into a community, and I will use Chicago as an example, 
there are 23 different parks and rec agencies. There is the 
park district, there are VA facilities, there are 30 some odd 
organizations all fighting for the same piece of pie. And the 
message that we jointly have really developed and shared and 
have learned from is that if we work together, we could grow 
that pie. We could have a larger impact. We can collaborate to 
create more efficiencies. But to make that happen, to expect, 
and you heard earlier, some of those organizations are three 
person shops with a $300,000 budget, some of them are $8 
million organizations that have, you know, 120 staff. To get 
those entities to work together their focus is usually on what 
their mission is and not to go out and work with 24 other 
agencies in a region.
    We have seen significant impact based on that regional 
focus, especially from a neutral party. And one of the benefits 
we have seen is coming in together as VA and USOC, it does 
create that, you know, and we saw this in Iowa with 75 
organizations coming together for a Summit and I think the fact 
that it was an Iowa Sports Foundation U.S. Olympic Committee 
led initiative, it created excitement, it created a ground 
swell for us in the State of Iowa, but it also I think created 
excitement for some of the people in Iowa to be able to partner 
with a national organization called the United States Olympic 
Committee.
    So creating that focus, and I know programmatic staff 
always comes up as an issue no doubt, I have that same 
conversation with my Chief Executive Officer (CEO) on a daily 
basis, but having some focused leadership in targeted places we 
believe, and this is a conversation Chris and I have had, we 
believe can allow for a greater impact and a greater 
efficiency, especially as it relates to getting people to work 
together.
    And I think as we heard earlier, you know, all the 
different, how do we connect the dots, how do we let, you know, 
a WTU or an active-duty soldier leaving know about the VA 
program and the VA program know at the community program? 
Having somebody focused, and we have that person in Chicago who 
is just doing fabulous work, really allows us to become more 
effective and efficient for a minimal investment.
    Mr. Stutzman. Would that person be a VA or a USOC employee?
    Mr. Huebner. Don't make me go back to my CEO and ask for 
more head count.
    Mr. Stutzman. Okay.
    Mr. Huebner. You know, the way we look at it, and I say 
this every day, we don't deliver a program in a box. I think it 
is a discussion based on the market. In some cases, in Chicago 
we have partnered with World Sport Chicago, which has 
incredible leadership, it is a partnership agency of ours, it 
has great recognition, so it is a VA-USOC partnership with 
World Sport Chicago.
    In some markets, it might be a USOC-0led employee, in other 
markets it might be a VA-led employee.
    So I think that is a discussion based on what is going to 
be the most significant impact in the market.
    One of the things that we have allowed to do, and you know, 
Joe Brown brought this today and it is back to that awareness 
question of we have allowed our brand to be used by our 
partners, so World Sport has Paralympic in their title, so it 
is an employee of World Sport, but it is a VA-USOC program and 
we are allowing them to say this is a Paralympic program, which 
is something pretty unusual for us.
    So really, I think it goes back to what is going to have 
the most impact in a region, in a market and make the decision 
based on that.
    Mr. Stutzman. And you mentioned $40 million in grants; is 
that correct?
    Mr. Huebner. We are tracking this, and we are going to 
track more importantly moving forward for all the entities we 
are working with, what their programmatic budgets are, what 
their private resources, their staff, their facilities and all 
that it is north of $40 million that the partners that we gave 
grants to are investing with their own resources.
    So we are feeling that, you know, the leverage of a grant, 
and I can speak to this in Colorado Springs. There was no 
programming in Colorado Springs for veterans or for persons 
with physical disabilities or injured servicemembers. You have 
Fort Carson, a major veteran population. People were driving an 
hour to 2 hours to play wheelchair basketball on a monthly 
basis at the program north of Denver. Today, there is a program 
lead by Colorado Springs Parks and Recreation, a Paralympic 
sport club that is serving veterans in the community and Fort 
Carson with consistent weekly basketball programming and 
multiple sport programming. But the most important thing, they 
brought their own budget of $400,000, their own staff to the 
table to deliver that, plus they went out and raised additional 
resources, because we provided a $25,000 seed grant from the 
U.S. Olympic Committee and VA that they went and leveraged to 
increase resources.
    So they are the primary funder of the program, we have just 
provided a targeted grant for them to focus on veterans.
    Mr. Stutzman. Has the new grant program, has that helped 
your ability to raise money privately?
    Mr. Huebner. I think it has helped our agencies that we are 
working with, and I think any of the panelists behind me, we 
have heard this consistently, it has really helped them 
leverage relationships, and Kirk talked about the three to one, 
you know, dollars in terms of raising, it has helped them to 
leverage our involvement with them.
    And I will use a specific example of a quote from a 
foundation leader in Chicago, it is a $1 billion community 
trust. He said point-blank, the reason they wrote a $125,000 
check to World Sport was because of the national, regional, and 
local collaboration that we brought to the table with the VA 
and with the local entities and that was compelling to them 
because it showed efficiencies in collaboration and an 
elimination of duplication.
    So that local entity didn't write the check to us, they 
wrote the check to our partner organization that is 
implementing the program, and in our mind our role in all of 
this was to grow the resource pie for the agencies that are 
implementing it at the community level, and we have seen 
multiple feedback from multiple agencies that that is 
happening. It is something we hope to track better going 
forward in our grant process and in evaluation process.
    Mr. Stutzman. Thank you. Mr. Braley.
    Mr. Braley. Mr. Nowak, Semper Fi.
    My dad landed on Hiroshima the same day that both flags 
were raised on Mount Suribachi, and Mr. Brown, he also had a 
similar experience to you in his life because he fell 35 feet 
from the grain elevator that he was working at when I was 2 
years old and was lucky to survive, as were you. We are so glad 
that you are with us here today, but he walked the rest of his 
life with a 2 inch lift in his heel in his right leg, and back 
then programs like the ones we are talking about weren't able 
to our Nation's veterans.
    And so I learned to play golf from my uncle, who is also a 
World War II veteran and didn't face the same challenges 
walking the hilly course in my hometown of Brooklyn, Iowa, that 
my father did.
    So one of the things that we are concerned about here today 
is the fact that in a State like Iowa where you have an 
extensive deployment of our National Guard on a regular basis, 
they come back to communities where there is no large military 
installation, reintegrate with the small towns and rural areas 
that they came from. A lot of times those areas don't have the 
same type of programs available on a larger scale like some of 
the ones that we have been talking to.
    My staff and I have a challenge because it is hard for us 
even to track these disabled veterans when they go to Walter 
Reed or Bethesda, to Brooke, to the Polytrauma Center in 
Minneapolis. They are constantly moving back and forth, and a 
lot of times when they finally get to their ultimate 
destination that is when they are really focused on the future.
    So how can we work with you to help identify people who can 
benefit from these fantastic programs, reconnect them with the 
passions they had before their disability, and help marry them 
and their interests in athletics to the types of services that 
are available from the VA?
    Mr. Nowak. Well, sir, I think that is a great question. And 
with my office, what we are doing is taking that as an 
objective that we need to tackle head on, and we are doing that 
in a couple different ways. And that is using our Web site that 
we have, with find a sports club finder, which links with the 
USOC, partnering with the USOC to have that educational 
experience for VA clinicians, and I think they are the 
gatekeepers for the good portion of this, and my office is 
working to develop tools that will allow them to help these 
veterans find these services in their community.
    So we do recognize that and we are working on that. It is a 
constant communication. It is communicating, letting these 
veterans know that these opportunities are there and they are 
there in their community, that they don't have to come to the 
VA forum. And that is why this partnership is successful and 
needs to continue, is we have so many veterans that don't live 
close to VAs that need adaptive sports, so partnering with the 
USOC allows us to provide them that.
    Mr. Braley. Well, Mr. Huebner, I want to thank you for 
coming to Iowa and being part of that conference and putting a 
face on your organization and its broader reach in the real 
world beyond what we see every 4 years when we watch a 
spectacle on our television sets.
    One of the things that I am so proud of is that Mike Boone, 
who testified earlier, talked about getting the initial 
information about the opportunities these grants provide 
through his conversation with you.
    One of the things that we are all interested in is how we 
can use these programs to educate the broader public to the 
benefits that this investment of their hard earned tax dollars 
makes not just for our wounded warriors, but for our country.
    And I talked earlier about some of those benefits. But I 
think one of the things that you have seen through your work in 
these programs is how they have the ability to motivate and 
inspire others, and I would like you to talk about that if you 
could and the impact you have seen from the work that your 
organization has done.
    Mr. Huebner. Yes, it is pretty overwhelming, and it was an 
honor to spend that day in Iowa, and I have to tell you you 
talk about leadership, the Iowa Sports Foundation and what they 
are doing to have 75 organizations from all over the State, all 
different, Red Cross, sport organizations, veteran 
organizations, phenomenal, and that is how we meet the need.
    And the nice thing about it is the model that we are 
implementing together is a training and technical assistance 
model. So if there is a veteran returning to Grinnell and the 
entity in Grinnell is a YMCA we can go in cost efficiently and 
provide training to that YMCA on how to provide sport 
programming for a person with a physical disability, and that 
is what makes this so incredibly efficient and effective, and 
the resources allow us to have significant impact.
    In terms of the awareness, and your timing is impeccable, 
sir, major league baseball is in the playoffs right now and 
college football is in the throws of their season, and one of 
our partners, and this is one of the things we are leveraging 
with our partners, we are asking them to feature veterans in 
their ad campaigns. So the Hartford had a $75 million ad 
campaign during March Madness this past year featuring Melissa 
Stockwell, a veteran, an employed veteran who made our 
Paralympics team in 2008. I mean she is on the Wounded Warrior 
Project Board. We were just talking earlier with my colleague 
from the Wounded Warrior Project. I mean this young lady she is 
just remarkable. I mean she started her own nonprofit 
foundation in Chicago to promote triathlon, but they featured 
her and they are running ads as we speak. I saw one last night 
during the baseball game featuring her in a national ad 
campaign, and to me it is just telling all Americans about the 
incredible young men and women that serve and the achievements 
that they can have regardless of their disability.
    And this morning I made a recommendation to a major multi-
national company that happens to be an international partner of 
ours who they have requested a veteran in their lead-up 
campaigns to London.
    And you talked a little bit about awareness. We are 
implementing multiple strategies. And when I say we, it is we 
collectively. Multiple strategies to reach young men and women. 
And my Marine friend over here, I have an Army first sergeant 
dad so I try and bust his chops any time I can, but I know just 
by listening to Marines, and I saw somebody back here with a 
globe and anchor bag, that they usually pay more attention when 
they get something that has Semper Fi on it. So it might not be 
USOC, it might not be VA, but if you put something with Semper 
Fi on it, those Marines usually open it and read it.
    So we are implementing multiple awareness strategies to 
targeted audiences based on their interests, and especially in 
this new age of social media and technology, that is something 
that we are implementing as we move forward, it is really being 
targeted about our communication. We are developing USOC-VA 
communication and awareness strategies, but we are also 
targeting some specific strategies to these audiences, because 
we host an event called Warrior Games, which the VA and the DoD 
and the USOC will collaborate on that 177 media participated 
in, national television coverage. I will make sure each of you 
get a copy of the national program that was aired after the 
games.
    But you know, talking with those five different service 
branches, I mean, the Coast Guard and the Marines talk 
different languages, and we have to be smart enough to make 
sure we are creating communication and awareness materials to 
those special audiences as well as nationally.
    And nationally, our research shows that there is 70-percent 
awareness now about Paralympic sport in the United States. Pre 
2002, it was less than 5 percent, so we are making progress 
there, and one of the reasons we are making progress is because 
our partners, the media, and the American public want to hear 
about these young men and women who have done so much to serve 
us, and we are making sure that we share those stories, and it 
is in our objectives for 2012 is to make sure we share more 
success stories about people like Joe Brown.
    Mr. Braley. I am going to show you, I wish I had the 
ability to show everyone on the screen, proof of what you were 
just talking about. Because one of the most challenging things 
any of us does is walk into the intensive care unit at a place 
like Walter Reed or Bethesda with a wounded warrior who has 
just returned without his arms, without his legs, and meet with 
them and their families as they are facing an uncertain future.
    And I had the honor of walking into Bethesda and meeting a 
young Marine from Dubuque, Iowa, named Christopher Billmyer, 
who had a bilateral above the knee amputation and was very, 
very concerned about what kind of a future he would have. And I 
put two things in his hand when I walked in. One was a coin 
with the flag raising at Hiroshima and the words Semper Fidelis 
on the back as a message from my father who has been gone for 
30 years. And the other was a bottle of champagne to open when 
he walked for the first time on his own.
    And I recently had the thrill of welcoming him home to 
Dubuque, along with about 15,000 other Iowans who lined the 
streets from the airport to his home, and one of the things 
that caught my attention was the stubbies he brought home with 
him, including shoes made at New Balance here in the United 
States in the Marine Corps colors with the globe and anchor 
logo and Semper Fi on the instep, which is exactly what you are 
talking about.
    And I can guarantee you he will have a lot more motivation 
to keep working to gain his mobility back because of those 
shoes, and we have to develop specific programs and assistive 
devices for our disabled veterans that inspire them to inspire 
us.
    So I thank you both for your testimony and look forward to 
working with you to make this a reality for all disabled 
veterans.
    Mr. Stutzman. Thank you, Mr. Barley.
    I would like to follow up just a little bit with you, Mr. 
Nowak. On outreach, what is the VA doing as far as outreach? Is 
there the ability to use mailings, TV ads, social media, plenty 
of opportunities in communicating?
    Mr. Nowak. Yes, sir. Currently we are using social media, 
we are doing mailings, we have a poster campaign that is going 
to print now that will be delivered to all the VA medical 
centers, all the VBA offices, all the Vet Centers, as well as 
to all of the OIF/OEF coordinators and their offices as well 
throughout the country that shows the transition from warrior 
to adaptive sport athlete.
    We already did some test marketing with that and received 
very, very good reviews. We partner with the USOC on that to 
developing these products. We are doing that.
    We are getting a lot of inquires from our Web site that 
veterans are going on looking for adaptive sports and different 
ways, so right now we are targeting those two areas, and as we 
move forward in 2012, we are looking to go to a broader more 
public type of target audience at that time.
    Mr. Stutzman. With mailings are you able to use when checks 
are sent out, inserts to notify vets that programs are 
available?
    Mr. Nowak. Right now, sir, we are doing mailings. We do 
have a booklet that is going to print that outlines all of the 
grants that have been awarded to the USOC and what those 
adaptive sports are and where they can be delivered.
    As far as checks go out, unfortunately, we really don't 
mail that many checks out, which is good, it is all direct 
deposit, but we do have mailings out and that is one area we 
will look into is direct mailing to the veteran, sir.
    Mr. Stutzman. Sure. Okay. And then I guess finally to Mr. 
Huebner, I mentioned the expanding of the coverage of the 
Paralympics Games. I know there was some coverage of last 
winter games. Can you tell us anything what is being arranged 
for the London Games?
    Mr. Huebner. Yeah, I was with my CEO yesterday talking 
about that exact subject. We want to enhance robust coverage of 
the games no doubt as the U.S. Olympic Committee, and a lot of 
people don't know our focus on Paralympics is really new. We 
are in our infancy. And one of our objectives is to create 
robust coverage, but also create using new media, expanded 
coverage, and we are in negotiations right now regarding the 
rights.
    The U.S. does not own the rights to broadcast the games in 
the United States, the International Paralympics Committee and 
the Local Organizing Committee in London owns those rights, but 
we are in negotiations right now and our plan is to hopefully 
innovate in developing a robust broadcast of the games, but 
also expanding the coverage, especially the daily coverage of 
what we can push back to viewers in the United States, whether 
it is online, streaming, You Tube, looking at a multifaceted 
approach.
    But you know, in the past three games, we announced our 
coverage in Italy 2 weeks after the games started, in 2008 3 
days before, last year a month before. Our goal by the end of 
this year is to announce some coverage plans for the 2012 
games, which we feel is an incredible opportunity just because 
of the history of the movement, especially with the veteran 
involvement from both the U.S. and United Kingdom, and we are 
going to be very focused on telling that veterans story at the 
Paralympics Games in 2012.
    Mr. Stutzman. Do any of the U.S. networks currently have 
rights to the games?
    Mr. Huebner. NBC has rights to the Olympic Games. The 
Paralympic, they are two separate organizations, International 
Olympic Committee, International Paralympic Committee, so we 
are in discussions and negotiations right now with the 
International Paralympic Committee, the local Organizing 
Committee about the rights, and then also having at the same 
time discussions with U.S. networks.
    Mr. Stutzman. Very good. Well, I am looking forward to it 
and excited about it, and I just want to thank both of you for 
being here. And I would also like the mention--do you have any 
other questions? Okay. Any further comments from either one of 
you?
    Mr. Nowak. Yes, sir. I know the earlier panel was talking 
about the grant process. Myself and Mr. Huebner have spent a 
lot of time over the last couple months examining that and how 
we can redefine that the VA has a new grant management office 
that is working with us, and we will have that corrected before 
next year.
    Mr. Stutzman. Very good. I think you can tell, and I am 
speaking for the other Committee Members that aren't here, I 
know that this is the type of program that is something we can 
go back home and be excited about and also share with veterans 
that are in our communities. And so the success of this program 
is obviously very important to this Committee, and we want to 
be here to help in any way that it can be successful, but 
obviously execution is really up to you all, and we hope that 
that is continued as you work together you will find continued 
support with that.
    So I would also like to mention finally that this 
Subcommittee is going to hold two field hearings. We are going 
to be in Iowa. Looking forward to being out in Hawkeye country 
with Ranking Member Braley, and that will be on October 17th, 
and October 19th we will be holding a hearing in Ft. Wayne as 
well. So we look forward to meeting your constituents and of 
course showing you some Hoosier hospitality.
    Mr. Braley. And I would just like to note, Mr. Chairman, 
that both Waterloo, Iowa, and Ft. Wayne, Indiana, were original 
members of the National Basketball Association, and that is why 
you should be interested in participating.
    Mr. Stutzman. Ft. Wayne Pistons, actually, that is right. 
That is right.
    So any closing remarks?
    Mr. Braley. No, just to thank everyone who came here today 
and remind us all about why these programs are important not 
just for the athletes they affect but for the greater good that 
they provide to us as a country and as a society.
    Mr. Stutzman. Very good. And I just want to thank the VA, 
the U.S. Paralympics, and each of your partners for being part 
of helping in the process of rehabilitating our veterans, and 
we are all very proud of them and want to see them have every 
opportunity after they have served our country.
    So with that, this Subcommittee is adjourned.
    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]
















                            A P P E N D I X

                              ----------                              

              Prepared Statement of Hon. Marlin Stutzman,
             Chairman Subcommittee on Economic Opportunity
    Good morning. This Committee's first responsibility to our veterans 
is enable those injured in military service have the broadest 
opportunity to rehabilitate themselves and that is what today's 
oversight hearing is all about.
    While I was not a Member of the 110th Congress, one of the 
legislative bright spots was the provision in Public Law 110-389 that 
established the VA-U.S.Paralympics Adaptive Sports Program, an 
initiative to expand the use of sports as part of a veteran's 
rehabilitation program.
    To do that, the law authorizes $8 million per year to fund veteran 
adaptive sports programs from the local level through elite levels of 
competition. The law limits use of the funds to disabled veterans and 
servicemembers and includes a provision to pay a per diem to those 
selected to participate in high-level adaptive sports competitions.
    There was a good reason to direct VA to partner with 
U.S.Paralympics and that was to use the cache of the Olympic brand and 
it ability to attract local and national organizations. Just as 
important, we saw how the Olympic brand would attract disabled veterans 
to adaptive sports.
    Given what we will hear today, that strategy has worked very well. 
It appears that thousands more disabled veterans are now involved in 
adaptive sports and at the elite levels, our national Paralympic and 
adaptive sports teams now include many more disabled veterans. It seems 
the program is also fostering further cooperation between adaptive 
sports clubs and programs at the local and national level.
    While the Paralympics has yet to draw the viewership like the 
Olympics, I believe the next steps would be to expand media coverage 
and I would ask Mr. Huebner to include their media plans in his 
remarks.
    In short, I believe the VA-U.S.Paralympics program is the right 
thing at the right time and this why I have introduced H.R. 2345, which 
extends this program through 2018. I am happy that we were able to 
favorably report H.R. 2345 to the Full Committee in July, and I look 
forward to its consideration at the Full Committee.
    Before I recognize the Ranking Member, I believe it is important to 
mention the role of recreational therapy as part of rehabilitation. 
When Staff visited a Midwestern VA medical center and asked the 
Director about the hospital's rec therapy program, the reply was, ``We 
don't have Bingo here.'' I find that myopic view of a well-documented 
rehabilitation resource incredible and I intend to speak with 
Chairwoman Buerkle about taking a look at VA's national recreational 
therapy program--or lack of a program. If nothing else, it should be a 
major source of participants for the VA-Paralympic program.
    I now recognize to the distinguished Ranking Member, Mr. Braley for 
his opening remarks.

                                 <F-dash>
   Prepared Statement of Hon. Bruce Braley, Ranking Democratic Member
    Since the early years of our country, Congress has had to reassess 
programs created to care for our men and women in uniform, our veterans 
who have courageously answered the call to duty, and their families who 
have shared in the military experience.
    Fortunately, this Congress stands united in support of our members 
of the Armed Forces and veterans who deserve the best resources we can 
muster to help them succeed in life after their military service. 
Paralympics sports have been used as a method of adaptive sports 
therapy since World War II. Paralympics continue to provide 
rehabilitation services to our disabled servicemembers who continue to 
use them successfully and these services have proven to be popular.
    Today's hearing will give the Subcommittee the opportunity to hear 
from the U.S. Olympic Committee how the Paralympics program, first 
authorized under Public Law 110-389 on October 10, 2008, has assisted 
our servicemembers and veterans to heal from the wounds of war. The 
price of war is not paid by money alone; servicemember that are called 
upon to serve on behalf of our country pay the ultimate price. This is 
especially true for those that have made the ultimate sacrifice of life 
and injury sustained while in service.
    I am pleased to welcome Mike Boone, the Director of Adaptive Sports 
Iowa, who is here to testify today. In March, his organization hosted a 
forum that brought people together interested in increasing 
opportunities for persons with physical and visual disabilities to be 
active in daily physical activity programs. Guests at this form 
included the National Guard and the VA Hospital. Although I was unable 
to attend, my staff was there at the forum. My staff has provided great 
feedback on the work Adaptive Sports Iowa is doing and how it 
positively impacts physically disabled athletes.
    I also recently had the opportunity to meet with Andy Yohe from 
Bettendorf, Iowa. He is a member of the Team USA sled hockey team, who 
in 2006 helped his team win a bronze medal at the Paralympic Winter 
Games in Torino, Italy. Then he helped the U.S. capture the gold medal 
at the 2010 Paralympic Winter Games in Vancouver, Canada. He was 
accompanied in the meeting by U.S. Olympic gymnast and fellow Iowan 
Shawn Johnson, who has been a tremendous advocate on behalf of the 
Paralympics. Shawn earned a gold medal and three silver medals at the 
2008 Olympic Games in Beijing, China.
    We have an obligation to our servicemembers to provide them the 
best training and equipment to ensure that they rehabilitate 
successfully, as well as to provide post-military services to help them 
live a healthy and active lifestyle in their civilian lives.
    Many of my colleagues would agree that the Department of Veterans 
Affairs provides world class care to our injured servicemembers and 
veterans. Knowing this, I would like to hear about the VA and USOC 
Memorandum of Understanding and its implementation. I am very 
interested to see if there have been any issues of concern in the 
partnership process. Additionally, I would like to hear about program 
outreach to veterans, and outreach to other veteran organizations that 
may help coordinate important events such as the National Veterans 
Wheelchair Games.
    I look forward to continue working with Chairman Stutzman and 
Members of this Subcommittee to ensure that this program continues to 
be successful in its mission to provide rehabilitative sports therapy 
to our injured servicemembers and our veterans.

                                 <F-dash>
        Prepared Statement of Colonel Richard G. Cardillo, Jr.,
            USA, (Ret.), Military Sport Program Coordinator,
                   U.S. Association of Blind Athletes
                           EXECUTIVE SUMMARY
    The United States Association of Blind Athletes (USABA) is a 
Colorado-based nonprofit organization that has provided life-enriching 
sports opportunities for children, youth and adults who are blind and 
visually impaired for the past 35 years. Through our partnership with 
the United States Olympic Committee, USABA has strengthened our 
collective effort to enhance the lives of disabled Veterans and 
disabled members of the Armed Forces who are blind and visually 
impaired in order to enhance their rehabilitation process through 
sport, physical activity, and recreation and, most importantly to 
assist them in the reintegration back into their home communities.
    This is a collective programming effort with the United States 
Olympic Committee, the Department of Veterans Affairs as well as 
national and community-based adaptive sports programs in an effort to 
enhance the lives of Veterans who are blind and visually impaired. Some 
of the USABA program accomplishments include:

    <bullet>  Grown programming efforts from 19 Veterans in 2008 to 
over 300 Veterans today
    <bullet>  Includes recreational, developing, emerging athletes
    <bullet>  Working collaboratively with the VA Blind Rehabilitation 
Centers
    <bullet>  Integrated/immersed select VA BRC staff into a ``train-
the-trainer'' model
    <bullet>  Constant program expansion
    <bullet>  Promote program participation with other community-based 
programs
    <bullet>  Established a formal relationship with the Department of 
Defense Vision Center of Excellence

    We see 3 recommendations in enhancing the current program 
initiative.
    <bullet>  Identification and sharing of contact information
    <bullet>  Re-establish the funding stream from the VA for the 
continued support to the BRCs
    <bullet>  Spousal and family inclusion in the rehabilitation 
process

    USABA again expresses our thanks for the recent support that the 
Subcommittee on economic opportunity has made to these various programs 
over the past 2 years. Our Nation's greatest assets are those 
individuals who have served and continue to serve . . . and we should 
continue to provide opportunities for these individuals as best we can 
for as long as we can.
    The United States Association of Blind Athletes (USABA) is a 
Colorado-based nonprofit organization that has provided life-enriching 
sports opportunities for children, youth and adults who are blind and 
visually impaired for the past 35 years. Through our partnership with 
the United States Olympic Committee, USABA has strengthened our 
collective effort to enhance the lives of disabled Veterans and 
disabled members of the Armed Forces who are blind and visually 
impaired in order to enhance their rehabilitation process through 
sport, physical activity, and recreation and, most importantly to 
assist them in the reintegration back into their home communities. On 
behalf of USABA, I would like to thank you for this opportunity to 
present our views on the partnership and progress between the United 
States Olympic Committee's Paralympics Division and the Department of 
Veterans Affairs in promoting adaptive sports for our Nation's 
Veterans.
    This morning I would like to take this opportunity to explain what 
this initiative has meant to USABA and, more importantly, to highlight 
some of the accomplishments and the impact this has had over the past 3 
years; none of which would be possible without the cooperation and 
partnership with the United States Olympic Committee, the Department of 
Veterans Affairs as well as national and community-based adaptive 
sports programs in an effort to enhance the lives of Veterans who are 
blind and visually impaired.

    <bullet>  USABA has grown our Operation Mission Vision programming 
efforts from a start of 19 Veterans interested in enhancing their 
personal lives through sport and physical activity in 2008 to over 300 
Veterans today. Those same Veterans are living at home and training in 
local community-based fitness centers around the United States.

        <bullet>  Chuck Sketch, U.S. Marine Corps, Wildomar, 
        California, blind and double above the knee amputee: 
        ``Participation in sports has put my life into advanced hyper-
        drive! Today, I'm living a life that my sighted friends can 
        only dream of.''

    <bullet>  Many of these Veterans have recognized the health 
benefits that physical activity has on improving their daily lives. A 
select few of those Veterans have been able to take their level of 
physical activity and skills to a higher level through the U.S. 
Paralympic emerging athlete program in hopes of making the U.S. 
Paralympic National team. For example:

        <bullet>  Chester Triplett, U.S. Army, Mooresville, North 
        Carolina: recently participated at the U.S. Track Nationals in 
        Tandem Cycling in Carson, CA in hopes of making the U.S. 
        Paralympic National Team; Chester won the 200 meter time trial, 
        placed 2nd in the 1,000 meter time trial and qualified to 
        compete in the 2012 Para-Cycling World Track Championships in 
        the city of Los Angeles in February.

    <bullet>  Through our Military Sport Program, we work directly with 
the VA staff at 9 of the 13 VA Blind Rehabilitation Centers (BRCs) in 
an effort to enhance the rehabilitation programs at the VA BRCs by 
assisting them in connecting with local community-based organizations, 
and in some cases, Paralympic Sport Clubs. Examples include:

        <bullet>  Southeastern BRC in Birmingham, AL currently takes 
        Veterans on a weekly basis to the Lakeshore Foundation; a local 
        Paralympic Sport Club. The Lakeshore Foundation is an Alabama-
        based non-profit organization that promotes independence for 
        persons with physically disabling conditions and provides 
        opportunities to pursue active, healthy lifestyles;
        <bullet>  Western BRC in Palo Alto, CA has a tremendous weekly 
        relationship with a local tandem cycling club and is developing 
        a working relationship with the Riekes Center for Human 
        Enhancement; a local Paralympic Sport Club. The Riekes Center 
        for Human Enhancement is a California-based non-profit 
        organization that offers programs in athletic fitness, creative 
        arts and nature awareness;
        <bullet>  American Lakes BRC in Tacoma, WA has a golfing 
        program with a local community golf course and is working to 
        expand their programming efforts with the Tacoma Parks and 
        Recreation and a local community-based rowing program.

    <bullet>  We've worked closely with the Department of Veterans 
Affairs over the past 2 years on immersing select VA BRC recreation 
therapists and specialists into our summer sports program in a ``train-
the-trainer'' model. The adaptive sports programming knowledge gained 
is easily transferable back into the BRC recreation efforts.
    <bullet>  We are continuously expanding existing programming 
efforts to include greater Veteran participation at USABA's Operation 
Mission Vision sports programs; such as developmental and learn to race 
cycling and rowing camps; and the California International Marathon.

        <bullet>  Gilbert Magallanes, U.S. Army, Clarksville, 
        Tennessee: ``Without USABA's Operation Mission and many other 
        programs that help wounded Soldiers, I wouldn't have gotten 
        past my injury or depression as easy. I'm no longer depressed. 
        I stayed off the couch. I used to weigh 287 pounds and now I'm 
        213; and I'm not going back. I'm not quitting. Playing sports 
        and staying active outside saved my life.''

    <bullet>  We encourage and assist Veteran participation at other 
community-based programs, U.S. Paralympic programs and VA adaptive 
sports programs being offered around the United States.

        <bullet>  Lonnie Bedwell, U.S.Navy, Dugger, Indiana: (See 
        Attached Exhibit A.)

    <bullet>  Facilitated in establishing a memorandum of understanding 
between the U.S.Paralympic Military Program and the Department of 
Defense Vision Center of Excellence (DoD VCoE). This memorandum of 
understanding strengthens the on-going relationship between the two 
organizations and will continue to enhance the rehabilitation of 
Veterans and injured Servicemembers who are blind and visually 
impaired.

    We see three recommendations in enhancing the current program 
initiative. In working with the Department of Veterans Affairs and the 
Department of Defense Vision Center of Excellence, our first 
recommendation for program improvement is the identification and 
sharing of contact information for every disabled Veteran who is blind 
and visually impaired. Having that level of accessibility would then 
maximize our efforts in reaching out to all disabled Veterans who are 
blind and visually impaired. Secondly, USABA would like to re-establish 
the funding stream from the Department of Veterans Affairs to allow for 
the continuation of support and services to the VA Blind Rehabilitation 
Centers in order to enhance the lives of Veterans who are blind and 
visually impaired. Thirdly, with the continuation of this initiative, 
we would like to see an expansion of the current programming efforts to 
include the Veteran's spouse and family. Having spent the first 53 
years of my life in the military I know all too well the positive 
influence the military family has on the servicemember. The inclusion 
of the family in these programming efforts is paramount to the success 
of the Veteran's rehabilitation.
    USABA again expresses our thanks for the recent support that the 
Subcommittee on economic opportunity has made to these various programs 
over the past 2 years. Our Nation's greatest assets are those 
individuals who have served and continue to serve . . . and we should 
continue to provide opportunities for these individuals as best we can 
for as long as we can. On behalf of USABA, I've appreciated the 
opportunity to testify today and I will be glad to answer any questions 
at this time.

                               __________
                             17 March 2011
    To Whom it May Concern,
    I want to start this letter by thanking everyone involved with 
putting this program together. As you will soon tell, I am not very 
good with words. So please forgive me as it is truly heart felt. When I 
sit back and reflect on this past weekend I am so humbled and grateful. 
I had the opportunity to meet a little 7 year old visually impaired 
girl who is completely full of life. I am in awe of someone that never 
had the blessings in life to see as many years as I did. I also met a 
man who sacrificed so much in combat and spent months in hospitals and 
has had 58 surgeries to piece him back together. Even after all of 
these surgeries he is still not whole. Not to mention all of the others 
who I was so fortunate to meet. You can never walk in another man's 
shoes. But, you can gain knowledge as well as draw strength and 
inspiration from their life's experience.
    Whether you realize it or not, you have made a major impact on so 
many lives. Here are a few things you have done for those of us who had 
the opportunity to participate in this program. We have developed new 
friendships that in some cases I'm sure will last for years. Walls that 
were solid, you not only placed a door in them; you also opened it for 
us. You have provided us with a new since of hope and drive. Thoughts 
like the following once again go through my mind: ``I really can do 
this.'', ``I wonder how much better at this I can get?'', and ``just 
what else can I really do?''. In my mind aren't these wonderful 
thoughts?
    With regards to my family, here are some of the things you have 
done for them: you placed tears of joy in my mother's eyes. My father 
told me ``I'm proud of you son''. At the age of 45 this almost brings 
tears to my eyes. As for the rest of my family it also provides them 
with joy and a new sense of strength.
    In my community you have put me on a platform to help others as you 
have helped me. What a humbling honor this is. In just a few short 
weeks of people finding out I was heading to Colorado and 2 days of 
being back the following has happened. Almost a countless number of 
people have called my house or approached me to talk. A mother came up 
to me crying and thanking me. She said ``You don't know how much of a 
difference you make in my daughter's life as she watches and listens to 
you''. A couple said ``You make us realize how little we have to 
complain about''. A gentleman talked with me for 30 minutes about the 
whole event in the local restaurant. That I know of, I had never spoken 
to any of these people before. This doesn't include the others I don't 
know and those I do.
    For those who put this program together, took care of us at the 
lodge, guided us on the slopes, and financially supported this I want 
to thank you once again. So you see, you have not only touch the lives 
of those of us privileged enough to participate in this event. You have 
touched the lives of literally hundreds. I just hope that I can 
represent all of your efforts and support in a manner that will also 
make you proud.
            Sincerely

                                                  Lonnie R. Bedwell
                                                           U.S.Navy
                                                    Dugger, Indiana
                               EXHIBIT A

                                 <F-dash>
         Prepared Statement of Michael Charles Boone, Director,
         Adaptive Sports Iowa, Iowa Sports Foundation, Ames, IA
    Chairman Stutzman, Ranking Member Braley and Members of the 
Subcommittee, I appreciate and am humbled to appear before you today to 
discuss the partnership between the United States Olympic Committee: 
Paralympic Division and the Department of Veterans Affairs.
    I've never had the honor to serve within the United States 
military. As a citizen of this country I cannot express enough the 
gratitude I have for the sacrifice these honorable men and women of our 
armed forces make. As a professional in the adaptive sports industry, I 
realized that I can have an impact on the lives of those who have come 
home with a physical disability. The opportunities I can provide will 
have a positive effect on the quality of life for both the injured 
members and their families.
    Prior to 2010, the state of Iowa lacked the organization and 
infrastructure to support the development of a successful and 
sustainable sport and recreation program for the physically disabled. 
The Iowa Sports Foundation recognized this need and our ability to fill 
the void. Our organization possesses the leadership and organization to 
make a difference within the state of Iowa and serve as a catalyst for 
change.
    Adaptive Sports Iowa is our answer to Iowa's need for adaptive 
sport and recreation programming. Officially kicking off in March 2011, 
Adaptive Sports Iowa was established with the mission of creating, 
organizing and promoting sport and recreation opportunities for Iowa's 
physically disabled population. The Adaptive Sports Iowa Summit, our 
kickoff event, was held with the intention of bringing together like-
minded organizations, groups and individuals within the state of Iowa. 
I would like to personally thank Congressman Braley for sending a 
member of his staff to this event. The Adaptive Sports Iowa Summit was 
intended to introduce our new program to the public and to be a forum 
to discuss and gather information on the needs of Iowa's physically 
disabled population. The Summit was a tremendous success and produced 
positive results that have helped guide Adaptive Sports Iowa as we 
continue to plan future programs.
    As a part of the Summit, we were honored to host Charlie Hubener, 
Chief of U.S. Paralympics. Mr. Hubener came to observe the event and to 
present Adaptive Sports Iowa with a $25,000 grant from the U.S. 
Paralympics and the Department of Veterans' Affairs. This grant allowed 
for us to purchase new equipment and begin a program that would target 
physically disabled veterans in the state of Iowa.
    With the promise of that grant money, we launched Operation: ASI, a 
program specially intended for Iowa's physically disabled veterans. To 
assist in the planning and coordination of the new program we formed a 
committee to oversee it. The Committee was comprised of representatives 
from the Iowa National Guard, the Central Iowa Veterans' Affairs Health 
Care System, Paralyzed Veterans of America-Iowa Chapter and myself.
    According to a Cornell University report, in 2009 close to 5 
percent of Iowa's 139,000+ veteran population live with a service-
connected disability.\1\ That accounts for more then 18,000 physically 
disabled veterans living in Iowa. This is a significant number of 
people who could take advantage of Operation: ASI.
---------------------------------------------------------------------------
    \1\ Erickson, W., Lee, C., von Schrader, S. (2010, March 17). 
Disability Statistics from the 2008 American Community Survey (ACS). 
Ithaca, NY: Cornell University Rehabilitation Research and Training 
Center on Disability Demographics and Statistics (StatsRRTC). Retrieved 
Sep 30, 2011 from www.disabilitystatistics.org.
---------------------------------------------------------------------------
    We held our first event on July 9, 2011 which was set up as an expo 
to introduce veterans to a variety of different activities. We had 
stations for golf, hand cycling and so that an individual could 
``sample'' each activity as well as a display for target shooting.
    The partnership between the U.S.Paralympics and the Department of 
Veterans' Affairs is an important and successful collaboration with 
great potential. Nationally, there are organizations that provide 
adaptive sports and recreation programs in their respective communities 
and regions. The overwhelming majority of these organizations work 
independently from each other with limited communication and 
collaboration between organizations. U.S.Paralympics is in the unique 
position to provide the necessary leadership and guidance to these 
organizations to assist in the development of nationwide grass roots 
support system. We attribute much of the success of Adaptive Sports 
Iowa to this same concept. Prior to the existence of Adaptive Sports 
Iowa, adaptive sports and recreation opportunities were extremely 
limited within Iowa. Upon further research and examination into the 
needs of Iowa, we determined that the pieces were in place to create 
our organization. Overall, the need was there but the leadership was 
not. By providing that leadership we have experienced tremendous 
success within our programs.
    There are a couple areas of improvement I suggest the Subcommittee 
examine to improve this partnership:

    1.  The U.S.Paralympics has the passion, organization, and 
resources to provide opportunities to demographics that the Department 
of Veterans Affairs is targeting to serve. It is in the best interest 
of those veterans that these two organizations continue to work 
together. I do see opportunity for this relationship to develop. For 
example, The Iowa Sports Foundation's fiscal years ended on September 
30. To date, our 2011 grant awarded to us in March from the Department 
of Veteran's affairs has not yet arrived. Adaptive Sports Iowa is 
fortunate to be part of an organize that could support the purchases 
and commitments we made to begin Operation: ASI but that is not the 
case for most adaptive sports organizations.
    2.  There is a need to more efficiently disseminate information 
regarding our programs to disabled veterans. Informing younger and 
recently disabled veterans has been a significant stumbling block for 
our organization. When a physically disabled soldier returns home 
following rehab there is currently no way for our organization to 
inform them of our programming opportunities. An easy and immediate 
improvement to this partnership is to establish a way for soon-to-be 
released rehabbing soldiers to be informed of the adaptive sports 
opportunities near their home.

    In closing, I would like to thank the Committee and the Department 
of Veterans' Affairs for your support of adaptive programming for 
physically disabled veterans. I grew up in a household with a blind 
father. While he was not a veteran, I saw firsthand how opportunities 
like these can change lives. What you are doing matters a great deal 
and will have a positive and lasting impact for the program 
participants, their family and friends, and their communities.

                               __________

                               Appendix A
                     OPERATION ADAPTIVE SPORTS IOWA
Operation ASI is designed to perform the following deliverables:

    1.  Develop a new program, Operation ASI, with the goal of 
increasing adaptive sports and recreation opportunities for Iowa's 
disabled veterans by the elements listed below:

        a.  Organize, promote and administer a variety of adaptive 
        sport and recreational programs targeting at least thirty (30) 
        disabled veterans by introducing them to a variety of 
        activities such as basic fitness and access to instruction and 
        equipment in cycling, bowling, golf and target shooting with 
        consistent weekly and/or bi-weekly training;
        b.  Increase the existing adaptive sport and recreation 
        opportunities in Iowa to include cycling, boccia, golf, and 
        target shooting for disabled veterans with consistent weekly 
        and/or bi-weekly training opportunities;

        i.  In recent years, Central Iowa has witnessed development of 
        many recreational trails. It's important that many of these 
        programs offer the opportunity for training and participation 
        away from VA and military campuses. There are many facilities 
        and locations the above mentioned activities can take place 
        that can effectively serve the needs of the program 
        participants.

        c.  Assist a minimum of five (5) disabled veterans in 
        participating in and completing a competitive level and/or 
        recreational event in any of the above motioned activities.

         i.  By working closely with the Iowa Games (another program of 
        the Iowa Sports Foundation), competitive opportunities will be 
        available and accessible to any and all disabled veterans that 
        have a desire to participate.
        ii.  RAGBRAI, an annual cycling event in Iowa with roughly 
        25,000 participants will be a target event for our program 
        participants. Progress has already been made with integrating 
        an adaptive specific team and disabled veterans within this 
        program will have the opportunity to participate with this 
        team.

        d.  Obtain the appropriate and necessary equipment for the 
        above mentioned activities that matches the needs of the 
        targeted disabled veterans.
        e.  Increase the number of disabled veterans participating in a 
        Paralympic Sport at any level to ten (10) or more

    2.  Organize and administer outreach efforts for recruitment, 
educational and public awareness purposes:

        a.  Educate at least sixty (60) disabled veterans about 
        adaptive sports opportunities available to them locally and 
        throughout Iowa.
        b.  Collaborate with the following organizations to identify 
        community organizations and contacts that can assist in the 
        promotion of this program to reach disabled veterans.

        i.  Veterans Affairs Central Iowa Health Care System
        ii.  Iowa National Guard
        iii.  Paralyzed Veterans of America--Iowa Chapter

        c.  Organize and administer a ``kickoff'' event for disabled 
        veterans and veterans organizations no later then July 31, 2011
        d.  U.S.Olympic Committee, Paralympic Division will be 
        recognized appropriately as a supporter of this program in 
        local media and publicity.

                                 <F-dash>
          Prepared Statement of Tina Acosta, MS, TR, Director,
         Adult Day Services and Adaptive Sports and Recreation,
      Turnstone Center for Children and Adults with Disabilities,
Ft. Wayne, IN, and Secretary, Indiana Association of Adult Day Services
                           Executive Summary
    Physical fitness activities are important to all people, but even 
more so for people with disabilities. A person who is physically fit 
protects his or her physical and mental health and enjoys a greater 
quality of life. In northeast Indiana, more than 150,000 persons over 
the age of 5 are living with a disability. Veterans with disabilities 
account for approximately 5 percent of this figure. Unfortunately, 
people with disabilities have few opportunities to participate in 
fitness related activities. There are a plethora of opportunities in 
the region for persons without disabilities to play sports, build 
strength and engage in leisure activities, but for people with 
disabilities, these opportunities are inaccessible or simply 
unavailable.
    In 1995, Turnstone addressed this lack of sports, recreation and 
wellness activities by developing the region's only adaptive sports 
program. In 16 years, Turnstone's program has grown to become a 
Paralympic Sport Club which today serves over 500 people with physical 
disabilities. But hundreds more, including our veterans and members of 
the armed forces, could be served if programs were available.
    Programs require funding. The funds provided through the Olympic 
Opportunity Fund are vital to the success of agencies who dedicate 
themselves to advancing and empowering people with disabilities. The 
receipt of the Olympic Opportunity Fund will provide Turnstone with the 
opportunity to bring the Healthy Minds Healthy Bodies program to 
northeast Indiana. The program will address the exploding, and unmet, 
demand for recreation, sports, and wellness opportunities for northeast 
Indiana veterans and members of the armed forces. Through this program 
health and wellness fitness memberships will be provided to veterans 
and members of the armed forces with physical disabilities. An 
introduction to Paralympic sports, as well as inclusive family 
programming, will be offered to our servicemen and women who 
participate in the Healthy Minds Healthy Bodies program.
    Turnstone will serve 25 veterans through the Healthy Minds Healthy 
Bodies program in the coming 2011-12 program year. While the VA and 
Turnstone sought to work together in the past, there was not an avenue 
to bridge the relationship. The Healthy Minds Healthy Bodies program 
creates this bridge. As a result of this program, which would not have 
been possible without the support of the Olympic Opportunity Fund, 
Turnstone and the VA will have the opportunity to work together. 
Through our joint efforts linked by the Healthy Minds Healthy Bodies 
program, veterans with physical disabilities living in northeast 
Indiana will have access to vital health and wellness programs as well 
as Paralympic sports. Through the Healthy Minds Healthy Bodies program, 
our veterans will reclaim their dignity and independence.
    Founded in 1943, Turnstone is a not-for-profit health and human 
services agency with an established history of serving children and 
adults with disabilities living in northeast Indiana. Turnstone's 
mission is to provide therapeutic, educational, wellness and 
recreational programs to empower people with disabilities living in 
northeast Indiana. In 2009, Turnstone became a designated Paralympic 
Sport Club.

Current Programs

    In 2011, over 2,200 children and adults with disabilities benefit 
from Turnstone's unique programs and services. Turnstone offers the 
only wheelchair accessible health and wellness center in Indiana, the 
only competitive sports and recreation program in northeast Indiana and 
northwest Ohio, and it is the only organization in the region that 
provides speech, physical, occupational and aquatic therapy services 
for children and adults on a sliding fee scale. Other programs and 
services provided by the agency include a warm water therapeutic pool, 
early intervention preschool and childcare services, case management, 
residential ramp building, equipment loan and an adult day services 
program.

2012 and Beyond

    Turnstone's Madge Rothschild Pediatric Therapy Wing will be 
completed in 2012. The addition of the wing will allow Turnstone to 
serve the 50 children on the waiting list to receive pediatric therapy 
services. An additional 100 children in need of therapy services living 
in northeast Indiana will also benefit from this expansion. In 2012, 
more than 600 children with disabilities will receive speech, physical, 
occupational and aquatic therapy on a sliding fee scale at Turnstone.
    Turnstone will continue to address the exploding, and unmet, demand 
for therapy, recreation, sports and wellness opportunities for people 
with disabilities in the coming years. The agency will soon embark on 
the early stages of a silent $8 million capital campaign, which is 
scheduled for completion in 2014. Turnstone will become the Midwest's 
stage for innovation in the development of therapeutic and wellness 
programs, including Paralympic sports, for people with physical 
disabilities. The 2014 Turnstone will feature: an accessible fitness 
center, warm water, zero depth therapy pool, as well as a cool water 
pool and specialized fitness, recreation, aquatics and wheelchair 
sports programs.

Paralympic Sports

    Since becoming a Paralympic Sport Club, Turnstone has introduced 
new competitive and leisure sports to children and adults with physical 
disabilities living in northeast Indiana. This designation has also 
increased the agency's access to resources and experts in the field of 
Paralympic sports, thereby providing the agency with the ability to 
build its existing sport programs. Programs which were in place in 
2009, but that have been enhanced thanks to becoming a PSC include: 
basketball, tennis, sled hockey, cycling and fencing. Since 2009, 
Turnstone has established a boccia team and held several introductory 
Paralympic sport clinics, including table tennis, archery, softball, 
curling, fencing, rugby, kayaking and sit volleyball.

Olympic Opportunity Fund

    As a Paralympic Sport Club, Turnstone has also been afforded a 
vital link to new funding sources, including the Olympic Opportunity 
Grant. In 2011, Turnstone applied and received an Olympic Opportunity 
Grant to replicate the Healthy Minds Healthy Bodies program in 
northeast Indiana. This program, which was piloted in the Chicago 
region, will provide veterans with physical disabilities and post-
traumatic stress disorder with access to Turnstone's accessible health 
and wellness center and an introduction to Paralympic sports.

Healthy Minds Healthy Bodies Program

    Turnstone's development of the Healthy Minds Healthy Bodies program 
will create new possibilities for veterans and members of the armed 
forces living with physical disabilities. Turnstone could not have 
brought the program to its community without the support provided 
through the Olympic Opportunity Fund. These dollars are vital to the 
development of the program and will have a lasting impact on our 
veterans. The veterans of northeast Indiana need the Healthy Minds 
Healthy Bodies program. Veterans like Tim, are the reason the program 
is so needed.
    In early 2011, Tim was featured in the local paper for a project--
``Operation Thank You''--he created as a student of Indiana Purdue 
University of Fort Wayne. Through Operation Thank You, Tim gathered and 
delivered thank you cards to veterans in the hospital.
    Tim, age 25, uses a wheelchair as a result of an injury obtained 
while in the military. He had heard about Turnstone, but never 
investigated what the agency offered. Tim toured the agency, learned 
that it offered wheelchair basketball, and immediately an interest was 
sparked.
    Then he saw the fitness center. Since May, Leonard has been working 
out at Turnstone. At Turnstone he doesn't have to get out of his chair 
to work out; he can roll up and lift independently. His focus--
weightlifting, and the results are in. He has lost more than 60 pounds 
of fat; but, gained 30 pounds of muscle. His waistline has shrunk 7'', 
while his chest has increased 10''. Tim is a machine.
    In August, Tim, who was joined by Turnstone's Director of Adult 
Services, Tina Acosta and the agency's Sports and Recreation 
Coordinator, Kevin Hughes, participated in the Valor Midwest Games in 
Chicago. He took part in the weightlifting competition and took gold. 
He also competed in the shot put--he took silver.
    This September, Tim rolled 4 miles in Fort Wayne's Fort-4-Fitness 
Half Marathon 10K and 4 Mile event. This event drew over 9,500 
athletes. Tim completed the 4 mile race in 50 minutes. Tim wheeled the 
race with a 14-year old boy with cerebral palsy. The young man 
completed the race 13 seconds faster than Tim. Both Tim and the boy 
were winners that day. Tim says, ``Where there is a way, there is 
how''. He's found the way and the how at Turnstone.
    Tim's story is one of success. More successes are possible. More 
possibilities can be created. The Olympic Opportunity Fund creates 
possibilities.
    Charlie Huebner, USOC's Chief of Paralympics stated in USA Today, 
``The most important thing that we can do, and our partners do, is make 
sure there's programming available for when young men and women 
returning to their community because that's where the rehab process 
really takes hold.'' Colonel Barbara Springer, former chief of physical 
therapy at Walter Reed, witnessed the impact of recreational programs 
on wounded warriors.
    Colonel Springer states ``Once they see they can do that activity, 
then they have the confidence, the self-esteem, to try anything''. 
Huebner and Springer's words reinforce the need for Turnstone's Healthy 
Minds Healthy Bodies program, as well as the Olympic Opportunity Fund.
    According to the VA of Northern Indiana, there are 7,000 veterans 
from OIF, OEF and OND living in northeast Indiana, while the local DAV 
chapters in the region have a cumulative membership of over 2,500. 
Nationally the VA reports, 77 percent of Veterans are overweight or 
obese, and weight-related disorders, including diabetes, are common.
    Turnstone has the resources and expertise needed to help our 
Veterans and members of the Armed Forces get fit, become active in 
sports and recreation and regain their independence. Turnstone's 
Healthy Minds Healthy Bodies program will expand Paralympic sports and 
physical activity programs for Veterans and members of the Armed Forces 
with physical disabilities and their caregivers.
    The Healthy Minds Healthy Bodies program will include four 
components:

    <bullet>  6-month membership to Turnstone's accessible fitness 
center and warm water pool as well as 5 hours of personal training.
    <bullet>  Access to Paralympic sports, including wheelchair tennis, 
boccia, sled hockey, wheelchair basketball, rugby and snow skiing and 
more.
    <bullet>  A monthly family social event, focusing on health and the 
introduction of Paralympic sports.
    <bullet>  Establishment of a Veterans Services Advisory Committee 
to ensure program sustainability.

    It is projected that 25 Veterans or members of the Armed Forces 
with physical disabilities (including amputations, spinal cord 
injuries, visual impairment, post-traumatic stress disorder, cerebral 
palsy, stroke and traumatic brain injury, age 21 to 55, in addition to 
20-25 caregivers of similar age), will participate in the Healthy Minds 
Healthy Bodies program.
    Through the Healthy Minds Healthy Bodies program Turnstone is 
investing in the long term health, wellness and quality of life of 
veterans living with disabilities in northeast Indiana, a group whose 
needs are underserved and unfilled. Our veterans are competent, self- 
determined individuals who can, and should, live with the independence 
and dignity they had become disability entered their life.
    Veterans deserve to live the lives of their dreams with full 
inclusion in all areas of life: educational, social, employment, and 
recreational. Without the availability of the Healthy Minds Healthy 
Bodies program, northeast Indiana will lack the specialized programs 
and facilities that enable full participation of people with a myriad 
of disabilities. The infusion of support provided by the Olympic 
Opportunity Fund to Turnstone changes that.

Conclusion

    ``Champions aren't made in the gyms. Champions are made from 
something they have deep inside them--a desire, a dream, a vision.''--
Muhammad Ali
    The participants of the Healthy Minds Healthy Bodies program are 
champions. They are our veterans who had a desire and dream to protect 
our nation--to protect our freedom and our independence. While 
championing their beliefs, these veterans lost their independence. 
Their life was changed in an instant, and they are now living with a 
disability. They should be thriving; their disability should not define 
their life or their livelihood.
    The Healthy Minds Healthy Bodies program, which is made possible 
thanks to the Olympic Opportunity Fund, redefines veterans living with 
disabilities. It offers hope; it changes lives. Through this program, 
veterans with physical disabilities will rebuild their physical 
strength, mental wellness and confidence. They will regain their 
dignity. They will rediscover their joy.

Past Federal Support

    Turnstone received a 3-year grant from the U.S.Department of 
Education in the amount of $130,000 in 2009. This grant funded the 
ICAAN (Inclusive Community Athletics and Activities Now) Program, which 
introduced various inclusive sports and recreation programs for persons 
with physical disabilities and their peers.
    Turnstone received the Carol M. White Award through the 
U.S.Department of Education in the amount of $120,000 in 2002. This 
grant funded Turnstone's Fitness for EveryBODY program and was 
instrumental in the agency's development of its accessible health and 
wellness fitness program and center.

                                 <F-dash>
         Prepared Statement of Kirk M. Bauer, J.D., USA (Ret.),
                Executive Director, Disabled Sports USA
Executive Summary

    The VA funded Paralympic Sports has provided unparalleled 
opportunities for Disabled Sports USA (DSUSA), working in partnership 
with U.S.Paralympics, to provide health enhancing sports and physical 
activity programs for severely wounded servicemembers, all at no cost 
to the disabled veteran. Just this past year, it has enabled Disabled 
Sports USA to identify and serve over 1000 severely wounded, including 
those with single and multiple amputations, paralysis, visual 
impairments and traumatic brain injury. Many of these are suffering 
some degree of Post Traumatic Stress and have found that participation 
in sports helps them to deal with PTSD more positively.
    The funding provided by the VA program has enabled DSUSA to 
``leverage'' its resources, drawing upon the community chapters' 
commitments of local resources, and encouraging corporate and 
individual donations to supplement the VA funding. Over $3 of funds 
were raised by Disabled Sports USA in the private sector, to every 
dollar provided by the VA grant funding.
    In the fiscal year October 1 to September 30, 2011, Disabled Sports 
USA has provided over 130 teaching and competition programs in over 20 
sports, for over 1000 disabled veterans nationwide. This has included 
instruction and advanced courses in the winter sports of alpine and 
Nordic Skiing, snowboarding, Biathlon and sled hockey.
    It has also included adaptive cycling, running and wheeling, 
equestrian, golfing, shooting, archery, sailing, kayaking, rowing, 
outrigger canoeing, swimming, scuba, fishing, water skiing, river 
rafting, climbing, hiking and other sports.
    One veteran with TBI, who is now training to become a Paralympic 
Ski Racer, reported that he was able to reduce his medications from 15 
per day to 3 per day because of his commitment to training and becoming 
physically fit.
    Another, a National Guard Non Commissioned Officer with TBI, 
learned to ski and now has committed to become a certified Adaptive Ski 
Instructor to help a local New York Chapter of DSUSA. He has also 
become involved in helping to staff youth camps conducted by the 
chapter, for children with disabilities. He reported at one camp this 
summer that he became so involved in helping the kids; he forgot his 
``alive day'', which had always caused him to become depressed and 
despondent as he dealt with PTSD. His therapists remarked that this was 
a major breakthrough for the veteran.
    These programs have produced positive outcomes for hundreds of 
disabled veterans who are struggling with readjustment to their new 
physical and mental challenges.

Testimony

    The VA funded Paralympic Sports has provided unparalleled 
opportunities for Disabled Sports USA (DSUSA), working in partnership 
with U.S.Paralympics, to provide health enhancing sports and physical 
activity programs for severely wounded servicemembers, all at no cost 
to the disabled veteran. Just this past year, it has enabled Disabled 
Sports USA to identify and serve over 1000 severely wounded, including 
those with single and multiple amputations, paralysis, visual 
impairments and traumatic brain injury. Many of these are suffering 
some degree of Post Traumatic Stress and have found that participation 
in sports helps them to deal with PTSD more positively.
    It also has provided the opportunity for DSUSA to develop 
partnerships with 63 community based DSUSA chapters and Paralympic 
Sports Clubs in 32 states; to help implement health enhancing sports 
programs at the community level. The funding provided by the VA program 
has enabled DSUSA to ``leverage'' its resources, drawing upon the 
community chapters' commitments of local resources, and encouraging 
corporate and individual donations to supplement the VA funding. Over 
$3 of funds were raised by Disabled Sports USA in the private sector, 
to every dollar provided by the VA grant funding.
    Our chapters were so impressed with the programs provided through 
U.S.Paralympics, that 39 of our 104 chapters have now become Paralympic 
Sports Clubs; spreading the excitement of Paralympic Sport and the 
benefits of physical activity for successful rehabilitation and 
reintegration back to an active, social life. Finally, VA funding has 
enabled DSUSA to leverage its private sector funding to provide 
additional sports services that increase health and wellness and 
provide increased opportunities for participation in Paralympic sport 
training and competition programs.
    In the fiscal year October 1 to September 30, 2011, Disabled Sports 
USA has provided over 130 teaching and competition programs in over 20 
sports, for over 1000 disabled veterans nationwide. This has included 
instruction and advanced courses in the winter sports of alpine and 
Nordic Skiing, snowboarding, Biathlon and sled hockey.
    It has also included adaptive cycling, running and wheeling, 
equestrian, golfing, shooting, archery, sailing, kayaking, rowing, 
outrigger canoeing, swimming, scuba, fishing, water skiing, river 
rafting, climbing, hiking and other sports.
    Through the VA Paralympic program, as well as private sector 
funding, DSUSA was able to expand training and racing opportunities in 
winter sports to disabled veterans, providing increased opportunities 
to achieve excellence in sports and train for possible Paralympic 
participation. This included 8 ski race (intermediate-advanced) 
training camps; 11 multi-level ski and snowboard training camps 
(beginner-intermediate); 11 ongoing, community programs (offering 
multiple participation opportunities, season long); grants to veterans 
pursuing adaptive instructor certification; and four regional ``NorAm'' 
elite races which included Paralympic level competitors from Europe, 
Australia and Canada.
    Because of the partnership with U.S.Paralympics and the VA, DSUSA 
is now working with more than 30 local VA Medical Centers on 
identification, outreach and recruitment of disabled veterans to its 
physical activity and sports programs. See appendix B for list of 
facilities.
    DSUSA is also working with more than 17 Military Medical Centers 
and Warrior Transition Units at major military bases on identification, 
outreach and recruitment of severely wounded warriors to its physical 
activity and sports programs. See appendix B for list of facilities.
    These programs have produced positive outcomes for hundreds of 
disabled veterans who are struggling with readjustment to their new 
physical and mental challenges. One veteran with TBI, who is now 
training to become a Paralympic Ski Racer, reported that he was able to 
reduce his medications from 15 per day to 3 per day because of his 
commitment to training and becoming physically fit.
    Another, a National Guard Non Commissioned Officer with TBI, 
learned to ski and now has committed to become a certified Adaptive Ski 
Instructor to help a local New York Chapter of DSUSA. He has also 
become involved in helping to staff youth camps conducted by the 
chapter, for children with disabilities. He reported at one camp this 
summer that he became so involved in helping the kids; he forgot his 
``alive day'', which had always caused him to become depressed and 
despondent as he dealt with PTSD. His therapists remarked that this was 
a major breakthrough for the veteran.
    Another Chicago based disabled veteran, an Air Force Senior Airman 
demolition expert was seriously injured when an IED in Iraq he was 
attempting to diffuse exploded. He lost his arm, and had the skin on 
his legs literally blown off so he had to be treated like a burn victim 
and suffered extensive muscle and bone damage. He became involved in 
the golf, scuba and skiing programs offered by DSUSA and has now become 
a single digit handicapped golfer. Just this last month, in August, he 
was offered a job with one of DSUSA's sponsors, AON, to help with their 
crisis management program for U.S.corporations located in foreign 
lands.
    An Army Captain with TBI from an IED just finished competing in the 
Hood to Coast Relay, a 12 man team that runs 197 miles from the top of 
Mt. Hood to the Oregon Coast. DSUSA entered the only wounded warrior 
team in the race which involved over 1,200 teams with nearly 15,000 
runners. That veteran, who was encourage by DSUSA Chapter Team River 
Runner, to become involved in kayaking in the hospital; is now teaching 
kayaking and helping DSUSA start a new chapter in Portland, Oregon.
    DSUSA is now surveying veterans participating in the Paralympic 
Sport programs offered through the VA funding. Initial survey results 
are showing that the veterans are now more active, committed to a 
healthier lifestyle and coping with their disabilities better, because 
of their involvement in sports and physical activity.
    Finally, because DSUSA is able to promote the VA sponsored 
Paralympic Sports Program on its Web site, in its national magazine 
Challenge, and with its network of 104 chapters operating in 38 states; 
thousands of readers and supporters are becoming aware of the 
Paralympic Sports Program and of its positive, health enhancing 
benefits to disabled veterans. Disabled Sports USA has provided several 
veteran success stories for use on the new VA Paralympic Web site.
    In addition, because of agreements with participating DSUSA 
chapters to market the program, more veterans are learning about the 
benefits of sports and physical activity through local chapter outreach 
efforts.
    In summary, the VA funded Paralympic Sport Program for disabled 
veterans has been an outstanding success to date. More disabled 
veterans are getting involved in the sports programs from entry level 
to elite Paralympic levels. They are benefiting through increased 
physical activity and are reporting that they are fitter, more active 
and better adjusted to civilian life because of the sports 
opportunities provided to them.
    With the newly injured returning from Afghanistan, the need for 
these programs is more urgent than ever before. Because the troops are 
being forced to dismount their armored vehicles in the highlands of 
Afghanistan, the military is reporting an alarming increase in the 
number of single and multiple amputees getting injured by IEDs, mortars 
and gunfire while dismounted.
    DSUSA staff has been witnessing firsthand this resurgence for 
several months; and now USA Today is reporting a doubling of the 
amputee injured from recent previous years and a tripling of the number 
returning with multiple amputations. These deserving wounded warriors 
will need our help as they separate from the military and become 
disabled veterans. With the help of the VA, DSUSA will continue to be 
there for them.

                               __________
                               Appendix A
                              Testimonials
    ``I had the time of my life and learned something I thought I would 
not learn very easy. I am looking forward to participating in more 
upcoming events. My wife Amanda loved the trip also and was happy to 
make new friends with spouses that deal with the same issues as herself 
with me. You all have helped me cope even better with my disabilities 
and raise my self-esteem.''

    Army SSGT Olan W. Aldrich
    Wounded Warrior, Traumatic Brain Injury

    ``You get injured like this, you tell yourself you'll be OK, but 
deep inside you know there are limits. But doing something like this, 
you realize there aren't as many as you think, if you put your mind to 
it.''

    Marine LCPL Ufrano Rios Jimenez
    Wounded Warrior, Leg Amputee

    ``I wanted to touch base with you to thank you for an awesome 
opportunity with The Hartford Ski Spectacular. I personally was 
mesmerized by the organization and the overwhelming support provided to 
me and my patients. My patients were glowing by the time they returned 
to FL. Laurie and Jimmy progressed to higher functioning adaptive ski 
equipment. Dustin was ``stoked'' that he can ski again, as he was a 
snowboarder prior to his injury. Please let everyone know that we 
greatly appreciated this program and it was an honor to have been a 
part of such a wonderful program.''

    Tammi Pasquel, Certified Therapeutic
    Recreation Specialist & Brain Injury Specialist
    Tampa VA

    ``Pushing myself to the limits, knowing that I can accomplish 
anything regardless of my injuries is what the ski weekend represents. 
I've done a lot of things that I never did when I was healthy and 
definitely didn't think I could do when I got injured.''

    Army SPC Mike Green
    Wounded Warrior, Above Elbow Amputee

    ``We all found ways to grow and push ourselves on the Grand Canyon. 
It gave us a look inside ourselves and gave us all the courage to say--
as my friends at Disabled Sports USA say ``if I can do this, I can do 
anything''. You have started a new adventure and nothing, not a stroke, 
not the loss of a limb, not the loss of sight, nor PTSD or TBI will 
stop you from enjoying life.''

    Army CAPT Chip Sell
    Wounded Warrior, Traumatic Brain Injury

    ``I have observed firsthand how Disabled Sports USA's Wounded 
Warrior Disabled Sports Project offers safe, reliable and effective 
programs for the severely wounded servicemembers who undergo treatment 
here. Your programming is always top-notch and provides high quality 
adaptive instruction. Participation in recreation and sports has been a 
key element in the successful rehabilitation of our population.''

    Rebecca Hooper, PhD Program Manager
    Center for the Intrepid

    To All The People That Believe In Me.
    I want to thank all these programs for helping me lose weight. I 
used to weigh 275 lbs and now I'm down to 245 lbs. and going down. All 
because I have been given a chance to be active as a disabled person. 
Wounded Warrior Project, DSUSA, AbilityPLUS, Central Jersey Rifle & 
Pistol Club, New Jersey Quail Project, Bart J Ruggiere Adaptive Sports 
Center, Challenge Aspen, New England Disabled Sports, Wheelers for the 
Wounded, Adaptive Sports Foundation. I want to give a very special 
thank you to all the volunteer and supporters without you we wouldn't 
have these program. God Bless You All.

    Army SSG. Heriberto Vidro
    Wounded Warrior, Traumatic Brain Injury

                               __________
                               Appendix B
                       List of VA Medical Centers

Tampa (FL)               Saginaw (MI)             San Diego (CA)
Palo Alto (CA)           Johnstown (PA)           Jewell VA Outpatient
                                                   Rehabilitation Center
                                                   (CO)
Richmond (VA)            Missouri (MO)            Stratton (NY)
Washington (DC)          Hines (IL)               Salt Lake (UT)
Northport (NY)           Boston (MA)              Johnson City (TN)
Los Angeles (CA)         Martinsburg (VA)         Asheville (NC)
Seattle (WA)             Eastern Blind            Phoenix (AZ)
                          Rehabilitation Center
                          (CT)
Albany (NY)              Puget Sound Health care  Tucson (AZ)
                          System (WA)
Syracuse (NY)            America Lake (WA)        Prescott (AZ)
Western (NY)             Togus (ME)               Cheyenne (CO)
Hampton (VA)             Clement J Zeblocki (WI)  Baltimore (MD)


     List of Warrior Transition Units and Military Medical Centers

Walter Reed National     Fort Belvoir (VA)        Fort Drum (NY)
 Military Medical
 Center (MD)
Naval Medical Center     Fort Sam (TX)            29 Palms (CA)
 San Diego (CA)
Brooke Army Medical      Walter Reed (DC)         U.S.Marine Corp
 Center (TX)                                       Wounded Warrior
                                                   Battalion East
                                                   (Lejeune NC)
Fort Carson (CO)         Fort Eustis (VA)         U.S.Marine Corp
                                                   Wounded Warrior
                                                   Battalion West
                                                   (Pendleton CA)
Fort Bragg (NC)          Fort Lewis (WA)          U.S.Marine Corp
                                                   Wounded Warrior
                                                   Battalion HQ
                                                   (Quantico VA)
Fort Meade (VA)          Fort Campbell (KY)       Wounded Warrior
                                                   Detachment (HI)


                               Appendix C
 List of participating (partner) organizations (*denotes DSUSA chapter 
                      and Paralympic Sports Club)
    Ability Plus*
    Adaptive Action Sports
    Adaptive Adventures*
    Adaptive Sports Center, Crested Butte*
    Adaptive Sports Foundation*
    Arizona Disabled Sports*
    Bart J. Ruggiere Adaptive Sports Center*
    Blue Ridge Adaptive Snow Sports
    Breckenridge Outdoor Education Center*
    Bridge II Sports*
    Cape Ability Outrigger Ohana, Inc.*
    Challenge Alaska*
    Challenge Aspen*
    Challenged Athletes of West Virginia
    Colorado Discover Ability
    Common Ground Outdoor Adventures
    Disabled Sports Eastern Sierra*
    Disabled Sports USA Far West*
    Eagle Mount Bozeman
    Friends of Stowe
    Great Lakes Adaptive Sports Association*
    Greek Peak Adaptive Snowsports
    Lakeshore Foundation*
    Leaps of Faith Disabled Water Skiers
    Maine Handicapped Skiing*
    National Ability Center*
    National Sports Center for the Disabled*
    New England Disabled Sports*
    New England Handicapped sports Association*
    Northeast Passage*
    Operation Comfort
    Oregon Adaptive Sports
    Outdoors For All*
    San Diego Adaptive Sports Foundation*
    SouthEastern Wisconsin Adaptive Ski Program
    Sports Association, Gaylord Hospital
    Sports, Arts, and Recreation of Chattanooga
    STRIDE Adaptive Sports*
    SUDS Diving, Inc.
    Sun Valley Adaptive Sports Program Inc
    Team River Runner
    Telluride Adaptive Sports Program*
    Teton Adaptive Sports
    The Adaptive Adventure Sports Coalition
    Two Top Mountain Adaptive Sports Foundation
    U.S. Handcycling
    UCO Sports & Recreation*
    United States Adaptive Recreation Center
    Wheelchair Sports Inc.
    Wintergreen Adaptive Sports

                                 <F-dash>
               Prepared Statement of Carl Blake, National
          Legislative Director, Paralyzed Veterans of America
                           EXECUTIVE SUMMARY
PVA Sponsors National Veterans' Wheelchair Games

    <bullet>  2011 was 26th year PVA has co-hosted with VA
    <bullet>  Held in Pittsburgh, PA
    <bullet>  567 veterans participated.

        <bullet>  41 were veterans of (OEF/OIF)
        <bullet>  126 of the veterans were first-time participants

    <bullet>  Next year will be held in Richmond, VA

        <bullet>  Encourage Subcommittee Members to attend

PVA supported the provisions of Public Law 110-389, the ``Veterans' 
        Benefits Improvement Act of 2008''

    <bullet>  The intent of the law is consistent with the mission of 
PVA's Sports and Recreation
    <bullet>  Program which is to expand the quantity and quality of 
sports and recreation opportunities, especially those that promote 
lifetime fitness and a healthy lifestyle, for PVA members and other 
people with disabilities.
    <bullet>  Law promotes disabled sports from the local level through 
elite levels.
    <bullet>  Creates partnerships among organizations specializing in 
supporting, training, and promoting programs for disabled veterans

PVA has benefited directly from Paralympics support
    <bullet>  Received $400,000 in December 2010

    <bullet>  Funded activities for 805 unique disabled veterans; 4,261 
participation opportunities
    <bullet>  PVA Handcycling Program ($175,000); National Veterans 
Wheelchair Games $125,000);
    <bullet>  PVA National Trapshoot Circuit ($50,000); PVA/AWBA 
Bowling Tournament Series ($50,000)

Much progress and enhanced cooperation has resulted from the 
        Paralympics Program and its partnership with VA

    <bullet>  Disabled sports and recreation activities have a positive 
impact not only on disabled servicemembers and veterans, but on their 
families as well
    <bullet>  Enhances self-esteem, reduces stress and the incidence of 
secondary medical conditions, and obviously improves conditioning
    <bullet>  Allows disabled servicemembers and veterans to reengage 
with family, friends, and the community
    <bullet>  PVA has transitioned a number of severely disabled 
veterans from our sports and recreation programs into our Vocational 
Rehabilitation program

Recommendations

    <bullet>  Transparency for credibility

        <bullet>  USOC-Paralympics should implement a review committee 
        that consists of leaders from the adapted sports and recreation 
        community who administer programs for disabled veterans
    <bullet>  Congress complete appropriations; hindering 
administration of program

                               __________

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, I am pleased to be here today on behalf of Paralyzed 
Veterans of America (PVA) to offer our views on the partnership between 
the Department of Veterans Affairs (VA) and the United States Olympic 
Committee (USOC) Paralympics program. As we have testified in the past, 
treatment and rehabilitation through sports and recreation for severely 
injured servicemembers and veterans is an important part of returning 
these men and women to a normal life. We would like to thank this 
Subcommittee particularly for its efforts to expand sports and 
recreation opportunities for disabled servicemembers and veterans.

    Perhaps no veterans' service organization understands the 
importance of sports as a rehabilitation tool more than PVA. Since its 
inception in 1946, PVA has recognized the important role that sports 
and recreation play in the spinal cord injury (SCI) rehabilitation 
process. In fact, it was paralyzed veterans, injured during World War 
II, who first started playing pick-up games of wheelchair basketball in 
VA hospitals. This marked the birth of wheelchair sports. Doctors 
quickly realized the significance of these types of activities and the 
powerful therapeutic benefits on the physical, mental and social state 
that could be derived from participating in wheelchair sports. It is 
for this reason that PVA developed, and annually administers, a 
comprehensive sports and recreation program for its members and other 
Americans with disabilities.
    PVA sponsors a wide array of sports and outdoor recreation events 
to improve the quality of life and health of veterans with severe 
disabilities. Most notable of these activities is the National Veterans 
Wheelchair Games (NVWG) which PVA has co-sponsored with the Department 
of Veterans Affairs for 26 years. In fact the most recent Games just 
wrapped up in Pittsburgh, Pennsylvania in July. This year, the NVWG 
drew 567 veterans. Of that number, 41 were veterans of Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF). More 
importantly, 126 of the veterans were first-time participants. PVA has 
one of the highest participation rates of members in this event. Next 
summer, PVA, along with the VA, will host the NVWG in Richmond, 
Virginia--site of the very first Wheelchair Games. We would encourage 
the Subcommittee to consider a day trip (or longer) to observe this 
incredible event firsthand. Likewise, we fully support the activities 
of the National Disabled Veterans Winter Sports Clinic, the National 
Veterans Golden Age Games, and the National Creative Arts Festival.
    In recent years, PVA has conducted significant outreach at 
Department of Defense (DoD) and VA hospitals to make its sports and 
recreation programs available to recently injured Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) veterans, and now to 
veterans of Operation New Dawn. In fact, PVA was recognized in 2007 by 
the staff at Walter Reed Army Medical Center for our important work 
with the men and women being treated at that facility. In addition, in 
2008 PVA edited a chapter in the DoD medical handbook Care of the 
Combat Amputee entitled ``Sports and Recreation Opportunities for the 
Combat Amputee'' to be included.
    PVA was pleased to support the provisions of Public Law 110-389, 
the ``Veterans' Benefits Improvement Act of 2008.'' Section 7 of the 
law authorized the VA to provide assistance to the Military Paralympics 
Program and expand sports and recreation opportunities available to 
severely disabled veterans. The intent of the law is consistent with 
the mission of PVA's Sports and Recreation Program which is to expand 
the quantity and quality of sports and recreation opportunities, 
especially those that promote lifetime fitness and a healthy lifestyle, 
for PVA members and other people with disabilities. As we have 
testified in the past, PVA's primary goal for its Sports and Recreation 
Program is all about health care and rehabilitation first.
    P.L. 110-389 specifically emphasizes the need to enhance the 
recreation activities provided by the Department of Veterans Affairs by 
promoting disabled sports from the local level through elite levels and 
by creating partnerships among organizations specializing in 
supporting, training, and promoting programs for disabled veterans. 
This will be accomplished by providing training, technical assistance 
and equipment and Paralympics mentors for injured veterans to 
participate in daily physical activity at the community level as an 
aspect of their rehabilitation.
    PVA has been fortunate to benefit directly from the expansion of 
activities under the USOC-Paralympics program. PVA was a grant 
recipient of one of the first round of grants provided by the USOC. In 
December 2010, PVA received a $400,000 grant of financial support from 
the USOC for the U.S. Paralympics Integrated Adaptive Sports Program. 
This funding was intended to cover program support activities through 
June 2011, when the next round of grants would be disbursed.
    With the financial support of the Paralympics, PVA was able to 
provide sports and recreation opportunities to 805 unique disabled 
veterans. Ultimately, 4,261 participation opportunities were made 
available to disabled veterans. PVA allocated the grant funding in the 
following manner:

    <bullet>  PVA Handcycling Program ($175,000)
    <bullet>  National Veterans Wheelchair Games ($125,000)
    <bullet>  PVA National Trapshoot Circuit ($50,000)
    <bullet>  PVA/AWBA Bowling Tournament Series ($50,000)

    Funding dedicated towards the Handcycling Program allowed us to 
move plans forward from preliminary stages and create 3,371 affiliated 
recreational, competitive, and training participation opportunities. A 
total of 83 unique disabled veterans took part in the program. We were 
able to host four regional adaptive cycling clinics in the following 
cities: Seattle, Washington; Palo Alto, California; Tampa, Florida; and 
Boston, Massachusetts. The Paralympics grant was also used to fund 
Paralyzed Veterans Racing team members who participated in the United 
States Handcycling Federation racing series nationwide.
    Support provided to the National Veterans Wheelchair Games provided 
an excellent opportunity for the Paralympics to conduct outreach as a 
part of its recruitment efforts for the 2012 London Olympic Games. We 
were able to introduce events similar to those found at the Paralympics 
at the National Veterans Wheelchair Games, which identified veterans 
with the potential to be future Paralympics-level athletes.
    PVA was also pleased to provide funding from the Paralympics grant 
for shooting sports as a part of our National Trapshoot Circuit. The 
grant supported a total of 77 unique disabled veterans who participated 
in 187 participation opportunities. We successfully hosted 15 trapshoot 
tournaments throughout the United States. These tournaments introduced 
disabled veterans to the sport of trapshooting by providing certified 
instructors and equipment for the disabled veterans attending the 
events. Additionally, we were able to develop and administer secondary 
shooting events, including rifle, pistol, air rifle and air pistol that 
are held concurrently alongside the trapshoot tournaments. These events 
are tailored to resemble shooting sports events that Paralympics 
athletes also participate in during competition. As a result of this 
financial support from the Paralympics, next year PVA will implement an 
air rifle and air pistol program consisting of four regional 
tournaments to be held throughout the United States.
    Finally, PVA was pleased to partner with the American Wheelchair 
Bowling Association (AWBA), with the backing of the USOC-Paralympics, 
to conduct the Bowling Tournament Series. This series hosted a total of 
62 unique disabled veterans representing 120 total participation 
opportunities. PVA and the AWBA successfully hosted eight bowling 
tournaments throughout the United States. Recently, the 50th American 
Wheelchair Bowling Association's National Tournament was held in 
Brockton, Massachusetts as part of the New England PVA Tournament.
    We believe that much progress and enhanced cooperation has resulted 
from the Paralympics Program and its partnership with VA. Under this 
program, PVA has witnessed improved coordination between our 
organization, USOC-Paralympics, and other veterans' and community-based 
sports organizations that has enhanced existing programs and advanced 
development of new programs in communities that previously had not been 
served. The overall performance of the partnership between PVA, the 
USOC-Paralympics and the Department of Veterans Affairs has 
successfully produced an increased number of sports and recreation 
opportunities for disabled veterans.
    There is no doubt that activities such as those listed above and 
all disabled sports and recreation activities have a positive impact 
not only on disabled servicemembers and veterans, but on their families 
as well. Research shows that physical activity is an important aspect 
of the rehabilitation process for persons with disabilities. It 
enhances self-esteem, reduces stress and the incidence of secondary 
medical conditions, and obviously improves conditioning. Equally 
important is that sports and recreation rehabilitation allows disabled 
servicemembers and veterans to reengage with family, friends, and the 
community. This contributes to a greater level of success in education 
and employment. In fact, PVA has transitioned a number of severely 
disabled veterans from our sports and recreation programs into our 
Vocational Rehabilitation program. As those veterans became healthier 
and more confident, they realized that they would not be satisfied 
without becoming fully productive members of society once again.
    In the past, we offered several recommendations that we believed 
would expand veteran participation in programs administered by the VA 
and the Paralympics program. While we believe that the Paralympics 
program has helped alleviate some of these concerns, our principal 
recommendation to remove barriers to participation remains the same. 
Our concern is that newly injured veterans should be provided timely 
access to education and training regarding sports and recreation 
opportunities. We believe that the VA and DoD should continue to 
improve coordination of outreach efforts between legitimate 
organizations promoting sports and recreation opportunities and newly 
injured veterans. As participation continues to improve, we look 
forward to continued progress as a result of this program.
    With regard to the USOC-Paralympics program specifically, both the 
transparency and credibility of the process to award grants must be 
improved. We are pleased to see that the USOC-Paralympics recently 
provided an open accounting of how it has administered its funds. 
However, we believe the USOC-Paralympics should implement a review 
committee that consists of leaders from the adapted sports and 
recreation community who administer programs for disabled veterans. The 
Committee would be responsible for ensuring that funds are awarded 
appropriately, efficiently administered, and used as intended. 
Increased transparency will only instill greater confidence in the 
success of the program.
    Finally, we have some concern about the timeliness and efficiency 
of funding the USOC-Paralympics program. In order for the organization 
to disburse funding to grant recipients, the USOC-Paralympics program 
must receive Federal funding in a timely manner. VA has been slow to 
provide the necessary funding authorized by the original legislation to 
USOC-Paralympics. The ability of the USOC-Paralympics to plan and 
administer the grants it provides is hindered by the inability of 
Congress to complete work on the appropriations for VA. As we 
understand it, funding for this grant program is directed through the 
Secretary's office through the Office of Public and Intergovernmental 
Affairs. In other words, until the FY 2012 VA appropriations bill is 
finally completed, funding for this program will be placed on hold. It 
truly is a shame that the success of this program hinges on the ability 
of Congress to fulfill one of its most important responsibilities. 
Moreover, we must emphasize that the importance of this program should 
preclude it from having its funding reduced as a part of deficit 
reduction.
    PVA appreciates the focus being placed on these important programs. 
We look forward to working with this Subcommittee to ensure that a wide 
range of sports and recreation activities are available to the men and 
women who have served and sacrificed.
    I would like to thank you again for the opportunity to testify. I 
would be happy to answer any questions that you might have.

                                 <F-dash>
                 Prepared Statement of Charles Huebner,
            Chief of U.S. Paralympics, U.S Olympic Committee
                           EXECUTIVE SUMMARY
    We accepted the responsibility and opportunity to serve those that 
have served us and because of your leadership in developing and 
providing funding for this USOC and VA partnership, we are here today 
to report the following outcomes in the past 10 months:

    <bullet>  The VA and USOC have distributed more 70 grants and 
provided ongoing training and technical assistance resulting in more 
than $5.9m in support.
    <bullet>  These grant organizations are contributing more than 
$40.0m in private resources and programmatic support.

        <bullet>  More than 200 Paralympic Sport Clubs or community 
        sport organizations are currently providing programs for 
        Veterans or servicemembers.

    <bullet>  More than 850 community, sport, military and Veteran 
leaders have been provided training, technical assistance or ongoing 
program support to develop or expand existing programs for Veterans.
    <bullet>  More than 14,000 Veterans with disabilities participated 
in programs and activities since the program's inception, with an 
emphasis on programming at the community level.

    Our focus moving forward are as follows:

    <bullet>  Provide $7.5m in grants, training and programmatic 
support, including grants to more than 100 organizations.
    <bullet>  Implement the inaugural VA-U.S.OC Paralympic Adaptive 
Sport Training Conference with more than 50 VA therapeutic recreation 
coordinators participating in February 2012, at the U.S. Olympic 
Training Center.
    <bullet>  Reduce year one programmatic staff and reinvest those 
resources into program needs to Veteran and community organizations 
implementing sport at the local level for Veterans in 2011 and 2012.
    <bullet>  Enhance educational materials and awareness of the impact 
and importance of physical activity for Veterans at the national and 
local level.
    <bullet>  Pursue additional resources to support VA-U.S.OC regional 
coordinators that can enhance collaboration and impact of programs in 
targeted regions throughout the U.S. Projected need for eight regional 
coordinators and program budget is estimated at $2.488m.

                               __________

    Good morning Chairman Stutzman and Ranking Member Braley, and 
Members of the Subcommittee. My name is Charlie Huebner and I am the 
Chief of Paralympics, for the United States Olympic Committee. Thank 
you for the opportunity to testify on progress of the Department of 
Veteran Affairs, U.S. Olympic Committee and U.S. Paralympics 
partnership.
    By way of a brief background, the USOC is an organization chartered 
by Congress and one of only four National Olympic Committees that mange 
both Olympic and Paralympic sport. We are one of only a handful of 
National Olympic Committees that are 100 percent privately funded, with 
our major competitors outspending us often as much as 5-to-1. 
Paralympic programs are sports for physically disabled athletes. The 
Paralympic Movement began shortly after World War II utilizing sports 
as a form of rehabilitation for injured military personnel returning 
from combat. In 2012 the Paralympic Games return to Great Britain, 
where with significant involvement from U.S. and U.K. Veterans, the 
movement was founded.
    Injured military personnel and Veterans are the soul of the 
Paralympic movement. And when I speak of the Paralympic movement, I am 
not just talking about a small number of elite athletes that will make 
future Paralympic teams, I am speaking of the growing programs in the 
U.S. led by the USOC and our partners like PVA, DSUSA and USA Shooting 
that allow Veterans with physical disabilities an opportunity to re-
engage in life by simply skiing with their buddies or playing in the 
backyard with their kids. As programming expands daily, we see a 
population that has lower secondary medical conditions, higher self-
esteem, lower stress levels and higher achievement levels in education 
and employment. Research proves that! More importantly, we see a 
population that inspires all Americans to pursue excellence, in sports 
and in life.
    A few years ago this Committee, Congressional leaders and Veteran 
and Military organizations asked the USOC to lead this effort, due to 
our powerful and inspiring brand; our expertise in physical activity 
and sport for persons with disabilities; and our significant 
infrastructure of member organizations such as Parks and Recreation, 
YMCA and USA Hockey, organizations that touch communities all over the 
U.S., that allow for financial and programmatic efficiencies. We 
accepted the responsibility and opportunity to serve those that have 
served us and because of your leadership in developing and providing 
funding for this USOC and VA partnership, we are here today to report 
the following outcomes in the past 10 months:

    <bullet>  The VA and USOC have distributed more 70 grants and 
provided ongoing training and technical assistance resulting in more 
than $5.9m in support.
    <bullet>  These grant organizations are contributing more than 
$40.0m in private resources and programmatic support.
    <bullet>  More than 200 Paralympic Sport Clubs or community sport 
organizations are currently providing programs for Veterans or 
servicemembers.
    <bullet>  More than 850 community, sport, military and Veteran 
leaders have been provided training, technical assistance or ongoing 
program support to develop or expand existing programs for Veterans.
    <bullet>  More than 14,000 Veterans with disabilities participated 
in programs and activities since the program's inception, with an 
emphasis on programming at the community level.

    Thanks to the leadership of this Committee, Secretary Eric 
Shinseki, Executive Director of Intergovernmental Affairs Mike 
Galloucis, VA Paralympic Director Chris Nowak, and VA Paralympic team 
member Matt Bristol, all Veterans, we have completed the planning 
phases for 2011 and beyond with an emphasis on expanded services, 
greater efficiencies and significant impact on those that we owe so 
much.
    Our focus moving forward are as follows:

    <bullet>  Provide $7.5m in grants, training and programmatic 
support, including grants to more than 100 organizations.
    <bullet>  Implement the inaugural VA-U.S.OC Paralympic Adaptive 
Sport Training Conference with more than 50 VA therapeutic recreation 
coordinators participating in February 2012, at the U.S. Olympic 
Training Center.
    <bullet>  Reduce year one programmatic staff and reinvest those 
resources into program needs to Veteran and community organizations 
implementing sport at the local level for Veterans in 2011 and 2012.
    <bullet>  Enhance educational materials and awareness of the impact 
and importance of physical activity for Veterans at the national and 
local level.
    <bullet>  Pursue additional resources to support VA-U.S.OC regional 
coordinators that can enhance collaboration and impact of programs in 
targeted regions throughout the U.S. Projected need for eight regional 
coordinators and program budget is estimated at $2.488m.

    In closing, I'd like to highlight one program that aligns all of 
our strategies, collaboration, training, technical assistance, 
awareness and financial support, along with an emphasis on hiring 
Veterans.
    Joe Brown was from Arizona. His family has a strong military 
history. His grandfather died as a POW during the Korean War. His 
father was an Air Force fighter pilot. Joe played football at the Ohio 
State University and 3 years in the NFL. But the Army Rangers were 
continually a calling, so he joined the Army, the Rangers and deployed 
to Iraq in 2004 and again in 2007.
    During his 2007 tour he was calling in air strikes atop a three-
story building, trying to help a unit in trouble. As his unit was 
leaving the building, Brown fell down a 30-foot shaft, suffering a 
severe brain injury.
    Brown new the importance of physical activity and sport in the 
rehabilitation process. He attended the USOC VA Paralympic Leadership 
Conference to gain valuable training and connect with other 
organizations and agencies in his region. He pursued a position in the 
parks and recreation industry near a military facility so he could 
serve injured servicemembers and Veterans
    He was hired by Harker Heights Parks and Recreation outside of Ft. 
Hood. Harker Heights, was awarded a $23,000 USOC-VA grant in 2010. 
Today more than 80 Veterans are participating consistently in an array 
of physical activity programs led by Joe.
    Harker Heights Hired a Hero! I would like to recognize U.S. Army 
Veteran Joe Brown.
    And again, I would like to thank the Committee, VA leadership and 
organizational partners with us today for supporting this partnership 
that is so critical to supporting our Nation's finest.
    I am available for any questions.

                                 <F-dash>
           Prepared Statement of Christopher Nowak, Director,
    Office of National Veterans Sports Programs and Special Events,
                  U.S. Department of Veterans Affairs
    Good afternoon Chairman Stutzman, Ranking Member Braley, and 
Members of the Subcommittee. I am Chris Nowak, Director, Office of 
National Veterans Sports Programs and Special Events, Department of 
Veterans Affairs. I am honored to be here today to share the success of 
the partnership between the Department of Veterans Affairs (VA) and the 
United States Paralympics to promote adaptive sports. I am also a 
disabled Veteran, and I believe that my personal participation in 
adaptive sports as part of my rehabilitation provides me with a unique 
perspective on this very important VA program.
    Adaptive sports can be an integral part of a Veteran's 
rehabilitation from traumatic injury, illness or disease. My office is 
committed to providing Veterans with the opportunity to engage in 
adaptive sports as part of a comprehensive rehabilitation program based 
on clinical outcomes. Our partnership with the United States Olympic 
Committee (USOC) allows us to provide adaptive sporting opportunities 
year-round in communities where our Veterans live.
    The Veterans' Benefits Improvement Act of 2008 (P.L. 110-389) 
authorized the formation of the Office of National Veterans Sports 
Programs and Special Events, which is to be headed by a Director who 
reports to the Secretary, Deputy Secretary or an appropriate official 
within the Veterans Benefits Administration. When I joined the team as 
its first Director in February 2011, the office managed all VA 
Paralympic-related programs, to include grants, allowances and 
outreach, and reported to the Secretary as necessary.
    On September 22, 2011, the VA's existing office of National 
Programs and Special Events (NPSE), which managed VA's National 
Rehabilitation Special Events, was consolidated with the Office of 
National Veterans Sports Programs and Special Events. This 
consolidation permits more efficient utilization of personnel and 
increased capacity and flexibility to support VA adaptive sports and 
art therapy programs at the community and national level. I now oversee 
VA's Paralympic programs as well as the six rehabilitation special 
events detailed below. I report to the Secretary of Veterans Affairs.
    The Office of National Veterans Sports Programs and Special Events 
is currently staffed by 19 full time employees. In addition, the team 
includes a consultant to aid in the consolidation of the National 
Rehabilitation Special Events and Paralympic programs, and a detailee 
from the Veterans Health Administration (VHA) to provide clinical input 
to the programs. These staff not only coordinate VA's partnership with 
the USOC, to include grant awards and oversight, monthly allowance 
assistance to Veterans and related outreach, but also to plan and to 
manage VA's National Rehabilitation Special Events: the National 
Disabled Veterans Winter Sports Clinic, National Veterans Wheelchair 
Games, National Veterans Golden Age Games, National Veterans TEE 
(Training, Experience, Exposure) Tournament, National Veterans Creative 
Arts Festival, and the National Veterans Summer Sports Clinic. 
Additionally, the office coordinates VA's commemorative event 
activities, such as the National Veterans Day Observance, and manages 
VA's participation in the National Memorial Day observance.
    The Veterans' Benefits Improvement Act also authorizes VA to seek 
sponsorships and donations from the private sector to defray cost of 
carrying out the integrated adaptive sports program. As Director, my 
focus has been to ensure proper use of VA grant funding, enact the 
monthly assistance allowance payments, and develop outreach materials. 
I have also taken steps to establish sponsorship as an objective for 
2012. These steps include:

    <bullet>  Establishing a Deputy Director within the office with the 
capability to develop clinical support for adaptive sports programs. 
This will allow us to validate the clinical benefits of adaptive sports 
as a form of rehabilitation.
    <bullet>  Hiring my first staff member who has already established 
connections with media to aid in distribution of promotional materials 
related to the program.
    <bullet>  Developing promotional materials that will aid in 
recruitment of eligible Veterans as well as potential sponsors. These 
materials include: an adaptive sports brochure, stickers, posters, fact 
sheet, outreach tool kit, a Web site and Web-based tools.

    In fiscal year 2010, VA entered into a Memorandum of Understanding 
with the USOC to provide Paralympic sport programming and additional 
community support, including funding and resources, to injured 
servicemembers and Veterans across the country. VA subsequently awarded 
$7.5 million to the USOC for the integrated adaptive sports program. VA 
also published regulations, developed forms and established procedures 
for awarding the monthly assistance allowance as authorized in Public 
Law 110-389.
    Moving forward in 2012, I expect to see greater coordination within 
VA as we consolidate the National Rehabilitation Special Events and 
Paralympic programs while continuing to develop our relationship with 
the USOC. The overarching objective is to provide disabled Veterans 
with adaptive sporting opportunities year-round and to ensure that 
these opportunities are consistent with appropriate clinical guidelines 
to aid in their rehabilitation.
    While VA continues to improve its current National Rehabilitation 
Special Events program, VA is continuing to look for new ways to 
enhance the rehabilitation experiences of our Veterans. We are meeting 
the challenges head on and constantly exploring ways to strengthen our 
partnership with the USOC. This concludes my statement, and I am happy 
to answer any questions you may have.

                                 <all>

</pre></body></html>
